<html>
<title> - EXAMINING LEGISLATIVE PROPOSALS TO PRESERVE CONSUMER CHOICE AND FINANCIAL INDEPENDENCE</title>
<body><pre>[House Hearing, 114 Congress]
[From the U.S. Government Publishing Office]




                    EXAMINING LEGISLATIVE PROPOSALS
                      TO PRESERVE CONSUMER CHOICE
                       AND FINANCIAL INDEPENDENCE

=======================================================================

                                HEARING

                               BEFORE THE

                 SUBCOMMITTEE ON FINANCIAL INSTITUTIONS
                          AND CONSUMER CREDIT

                                 OF THE

                    COMMITTEE ON FINANCIAL SERVICES

                     U.S. HOUSE OF REPRESENTATIVES

                    ONE HUNDRED FOURTEENTH CONGRESS

                             FIRST SESSION

                               __________

                             JUNE 11, 2015

                               __________

       Printed for the use of the Committee on Financial Services

                           Serial No. 114-31
                           
                           
                           
  [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]                         
                           
                           
                           
                           
 
                         U.S. GOVERNMENT PUBLISHING OFFICE 

96-992 PDF                     WASHINGTON : 2016 
-----------------------------------------------------------------------
  For sale by the Superintendent of Documents, U.S. Government Publishing 
  Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
         DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
                          Washington, DC 20402-0001                          
                           
                           
                           
                           
                           
                           
                           
                           
                           
                           

                 HOUSE COMMITTEE ON FINANCIAL SERVICES

                    JEB HENSARLING, Texas, Chairman

PATRICK T. McHENRY, North Carolina,  MAXINE WATERS, California, Ranking 
    Vice Chairman                        Member
PETER T. KING, New York              CAROLYN B. MALONEY, New York
EDWARD R. ROYCE, California          NYDIA M. VELAZQUEZ, New York
FRANK D. LUCAS, Oklahoma             BRAD SHERMAN, California
SCOTT GARRETT, New Jersey            GREGORY W. MEEKS, New York
RANDY NEUGEBAUER, Texas              MICHAEL E. CAPUANO, Massachusetts
STEVAN PEARCE, New Mexico            RUBEN HINOJOSA, Texas
BILL POSEY, Florida                  WM. LACY CLAY, Missouri
MICHAEL G. FITZPATRICK,              STEPHEN F. LYNCH, Massachusetts
    Pennsylvania                     DAVID SCOTT, Georgia
LYNN A. WESTMORELAND, Georgia        AL GREEN, Texas
BLAINE LUETKEMEYER, Missouri         EMANUEL CLEAVER, Missouri
BILL HUIZENGA, Michigan              GWEN MOORE, Wisconsin
SEAN P. DUFFY, Wisconsin             KEITH ELLISON, Minnesota
ROBERT HURT, Virginia                ED PERLMUTTER, Colorado
STEVE STIVERS, Ohio                  JAMES A. HIMES, Connecticut
STEPHEN LEE FINCHER, Tennessee       JOHN C. CARNEY, Jr., Delaware
MARLIN A. STUTZMAN, Indiana          TERRI A. SEWELL, Alabama
MICK MULVANEY, South Carolina        BILL FOSTER, Illinois
RANDY HULTGREN, Illinois             DANIEL T. KILDEE, Michigan
DENNIS A. ROSS, Florida              PATRICK MURPHY, Florida
ROBERT PITTENGER, North Carolina     JOHN K. DELANEY, Maryland
ANN WAGNER, Missouri                 KYRSTEN SINEMA, Arizona
ANDY BARR, Kentucky                  JOYCE BEATTY, Ohio
KEITH J. ROTHFUS, Pennsylvania       DENNY HECK, Washington
LUKE MESSER, Indiana                 JUAN VARGAS, California
DAVID SCHWEIKERT, Arizona
FRANK GUINTA, New Hampshire
SCOTT TIPTON, Colorado
ROGER WILLIAMS, Texas
BRUCE POLIQUIN, Maine
MIA LOVE, Utah
FRENCH HILL, Arkansas
TOM EMMER, Minnesota

                     Shannon McGahn, Staff Director
                    James H. Clinger, Chief Counsel
       Subcommittee on Financial Institutions and Consumer Credit

                   RANDY NEUGEBAUER, Texas, Chairman

STEVAN PEARCE, New Mexico, Vice      WM. LACY CLAY, Missouri, Ranking 
    Chairman                             Member
FRANK D. LUCAS, Oklahoma             GREGORY W. MEEKS, New York
BILL POSEY, Florida                  RUBEN HINOJOSA, Texas
MICHAEL G. FITZPATRICK,              DAVID SCOTT, Georgia
    Pennsylvania                     CAROLYN B. MALONEY, New York
LYNN A. WESTMORELAND, Georgia        NYDIA M. VELAZQUEZ, New York
BLAINE LUETKEMEYER, Missouri         BRAD SHERMAN, California
MARLIN A. STUTZMAN, Indiana          STEPHEN F. LYNCH, Massachusetts
MICK MULVANEY, South Carolina        MICHAEL E. CAPUANO, Massachusetts
ROBERT PITTENGER, North Carolina     JOHN K. DELANEY, Maryland
ANDY BARR, Kentucky                  DENNY HECK, Washington
KEITH J. ROTHFUS, Pennsylvania       KYRSTEN SINEMA, Arizona
FRANK GUINTA, New Hampshire          JUAN VARGAS, California
SCOTT TIPTON, Colorado
ROGER WILLIAMS, Texas
MIA LOVE, Utah
TOM EMMER, Minnesota


















                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on:
    June 11, 2015................................................     1
Appendix:
    June 11, 2015................................................    39

                               WITNESSES
                        Thursday, June 11, 2015

Ireland, Oliver, Partner, Morrison & Foerster LLP................     7
Miller, Hon. Brad, former Member of Congress, and Senior Fellow, 
  the Roosevelt Institute........................................     8
Peirce, Hester, Director, Financial Markets Working Group, and 
  Senior Research Fellow, the Mercatus Center, the George Mason 
  University.....................................................     5
Sharp, Jess, Managing Director, Center for Capital Markets 
  Competitiveness, U.S. Chamber of Commerce......................     3

                                APPENDIX

Prepared statements:
    Ireland, Oliver..............................................    40
    Miller, Hon. Brad............................................    49
    Peirce, Hester...............................................    52
    Sharp, Jess..................................................    58

              Additional Material Submitted for the Record

Neugebauer, Hon. Randy:
    Written statement of the American Bankers Association........    69
    Written statement of the Conference of State Bank Supervisors    81
    Written statement of the Independent Community Bankers of 
      America....................................................    87
    Joint written statement of the American Bankers Association, 
      the American Financial Services Association, the American 
      Land Title Association, the Consumer Bankers Association, 
      the Credit Union National Association, the Financial 
      Services Roundtable, the Independent Community Bankers of 
      America, the Mortgage Bankers Association, and the National 
      Association of Federal Credit Unions.......................    90
    Written statement of the National Association of Federal 
      Credit Unions..............................................    93
Guinta, Hon. Frank:
    Joint written statement of the National Automobile Dealers 
      Association, the American Financial Services Association, 
      the National Independent Automobile Dealers Association, 
      the Recreation Vehicle Industry Association, the American 
      International Automobile Dealers Association, the National 
      Auto Auction Association, the Alliance of Automobile 
      Manufacturers, the Motorcycle Industry Council, and the 
      National RV Dealers Association............................    95
    Letter from Alan and Stacey Jope.............................    98
    Written statement of the National Automobile Dealers 
      Association................................................    99
    Written statement of the New Hampshire Automobile Dealers 
      Association, Inc...........................................   114
Poliquin, Hon. Bruce:
    Letter from the National Child Support Enforcement 
      Association, dated March 18, 2015..........................   116
Rothfus, Hon. Keith:
    Letter from the American Bankers Association, dated April 15, 
      2015.......................................................   117
    Letter from Enterprise Bank, dated June 10, 2015.............   119
    Letter from the Independent Community Bankers of America, 
      dated April 27, 2015.......................................   122
    Letter from the Pennsylvania Association of Community 
      Bankers, dated April 21, 2015..............................   123
Williams, Hon. Roger:
    Letter from the Conference of State Bank Supervisors, dated 
      June 10, 2015..............................................   124
    Responses to questions for the record submitted to Oliver 
      Ireland....................................................   126

 
                    EXAMINING LEGISLATIVE PROPOSALS
                      TO PRESERVE CONSUMER CHOICE
                       AND FINANCIAL INDEPENDENCE

                              ----------                              


                        Thursday, June 11, 2015

             U.S. House of Representatives,
             Subcommittee on Financial Institutions
                               and Consumer Credit,
                           Committee on Financial Services,
                                                   Washington, D.C.
    The subcommittee met, pursuant to notice, at 3:08 p.m., in 
room 2128, Rayburn House Office Building, Hon. Randy Neugebauer 
[chairman of the subcommittee] presiding.
    Members present: Representatives Neugebauer, Pearce, Lucas, 
Fitzpatrick, Westmoreland, Luetkemeyer, Mulvaney, Pittenger, 
Barr, Rothfus, Guinta, Tipton, Williams, Love, Emmer; Clay, 
Scott, Maloney, Sherman, and Heck.
    Also present: Representative Poliquin.
    Chairman Neugebauer. The Subcommittee on Financial 
Institutions and Consumer Credit will come to order. Without 
objection the Chair is authorized to declare a recess of the 
subcommittee at any time.
    Today's hearing is entitled, ``Examining Legislative 
Proposals to Preserve Consumer Choice and Financial 
Independence.'' I would like to thank our witnesses for taking 
the time to testify today. This is the Subcommittee on 
Financial Institution's first time in the newly remodeled 
hearing room.
    Before we begin, I ask unanimous consent that members of 
the full Financial Services Committee who do not sit on the 
subcommittee be recognized for questioning at the conclusion of 
the subcommittee members' questions. I also ask unanimous 
consent to recess this hearing at any time to be resumed at the 
call of the Chair.
    I now recognize myself for 3 minutes.
    Good afternoon. Today's hearing provides an opportunity for 
Members to continue the discussion of regulatory relief for 
community financial institutions and the protection of 
consumers' financial choices. Many Members here today have put 
in a tremendous amount of work to build bipartisan coalitions 
for their legislation. Today, we will consider legislation that 
covers a wide array of financial services and issues: 
legislation amending the bank examinations and supervision 
process; legislation addressing consumer lending concerns; and 
legislation facilitating a healthy child support system. I 
thank each of you and your staffs for advancing the ball and 
helping us move one step closer to our committee markup.
    In my time today, I would like to focus on H.R. 1266, the 
Financial Product Safety Commission Act of 2015. This bill will 
restructure the Consumer Financial Protection Bureau (CFPB), 
turning its leadership into a five-person, bipartisan 
commission.
    In this Congress, I have been honored to see this 
legislation become bipartisan with two members of this 
committee signing on as cosponsors, Ms. Sinema of Arizona, and 
Mr. Scott of Georgia. Many of you are continuing to 
constructively participate in ongoing negotiations. I have 
committed to each of you that we will work together to find an 
acceptable budget offset and an acceptable transition 
structure, and to consider this legislation separate from the 
CFPB appropriations discussion.
    As we consider this new CFPB structure, I would like to 
remind Members who are still formulating a position on the 
long-time Democratic support of a five-person bipartisan 
commission at the CFPB that first, in 2008, Professor Elizabeth 
Warren, now Senator Warren, proposed creating a five-person 
bipartisan commission in her article, ``Unsafe At Any Rate.'' 
In the wake of the financial crisis, President Obama publicized 
a regulatory reform White Paper that advocated for the 
commission at the CFPB.
    In 2009, Barney Frank introduced the Consumer Financial 
Protection Agency Act, which created a five-person board at the 
CFPB. I am pleased to thank one of our witnesses, Mr. Brad 
Miller, for having been one of the original cosponsors and 
supporting the CFPB commission on two occasions. At the end of 
the day, to ensure a sustainable, effective, and balanced CFPB, 
we need to reform its structure, not get rid of it, but reform 
it. Ultimately, the consumers' experience in the financial 
marketplace will be significantly enhanced. I now recognize the 
gentleman from Missouri, Mr. Clay, for 2 minutes.
    Mr. Clay. Thank you very much, Mr. Chairman, and thank you 
to each of today's witnesses for your testimony. I want to 
especially welcome back our former colleague, Mr. Brad Miller 
of North Carolina. It is good to see you again. Today, we 
consider a number of legislative proposals that will 
purportedly work to preserve consumer choice and financial 
independence. Upon closer examination, however, very few of the 
bills under consideration actually preserve consumer choice or 
independence, or protect consumers or provide meaningful relief 
to community banks. There are two proposals, however, that I 
believe will preserve consumer choice and provide relief to our 
community financial institutions: H.R. 1553, which will provide 
meaningful relief for well-managed and well-capitalized 
community banks; and H.R. 1660, which would allow Federal 
savings and loans to charter flexibility to adjust to consumer 
demand.
    I would urge my colleagues to spend more of the 
subcommittee's time considering H.R. 2642, the Community Lender 
Regulatory Relief and Consumer Protection Act of 2015, a bill 
that is supported by every Democratic member of this committee, 
and on the Senate Banking Committee, that would actually solve 
the problems that consumers and institutions face. And I look 
forward to hearing each of the witnesses' testimony. I yield 
back the remainder of my time.
    Chairman Neugebauer. I thank the gentleman, and now the 
gentleman from Kentucky, Mr. Barr, is recognized for one 
minute.
    Mr. Barr. I thank the chairman for yielding. No one should 
be satisfied with our weak and unimpressive economic recovery. 
If this recovery had equaled the recovery of the 1980s, the 
economy today would be $2 trillion larger than it actually is. 
That works out to about $6,000 per family per year. The housing 
sector represents between a quarter and a third of the economy. 
Despite pent-up demand, the housing sector has recovered in 
fits and starts, and this unevenness is due in part to the lack 
of available credit, a problem being addressed by this 
subcommittee.
    My legislation, H.R. 1210, the Portfolio Lending and 
Mortgage Access Act, would allow loans held on a bank or credit 
union's portfolio to satisfy the Dodd-Frank Act's qualified 
mortgage regulation. This simple adjustment will enable 
financial institutions to return to their traditional business 
of relationship mortgage lending in their communities, while 
preventing the murky securitizations and taxpayer backstops 
that led to the financial crisis. Today, I look forward to 
discussing solutions like H.R. 1210 to empower consumers and 
support economic growth. And, again, I thank the chairman for 
organizing this hearing and I yield back the balance of my 
time.
    Chairman Neugebauer. I thank the gentleman, and now we look 
forward to hearing from our panel today. I welcome Mr. Jess 
Sharp, managing director of the U.S. Chamber of Commerce Center 
for Capital Markets and Competitiveness; Ms. Hester Peirce, 
director of the Financial Markets Working Group, and senior 
research fellow at the Mercatus Center at George Mason 
University, thank you for being here; Mr. Oliver Ireland, a 
partner at Morrison & Foerster; and the Honorable Brad Miller, 
former colleague, and senior fellow at the Roosevelt Institute.
    Mr. Sharp, you are now recognized for 5 minutes to 
summarize your testimony.

STATEMENT OF JESS SHARP, MANAGING DIRECTOR, CENTER FOR CAPITAL 
       MARKETS COMPETITIVENESS, U.S. CHAMBER OF COMMERCE

    Mr. Sharp. Thank you, sir. Chairman Neugebauer, Ranking 
Member Clay, and members of the subcommittee, my name is Jess 
Sharp, and I am the managing director of the Center for Capital 
Markets Competitiveness at the U.S. Chamber of Commerce. Thank 
you again for inviting me to testify this afternoon on behalf 
of the hundreds of thousands of businesses the Chamber 
represents. Today, I will discuss one goal on which the 
subcommittee rightly continues to focus: ensuring that 
consumers have access to the products they want through safe 
and competitive marketplaces. The Chamber firmly supports 
consumer protection that deters and punishes financial fraud 
and predation and ensures that consumers receive clear, 
concise, and accurate disclosures; but consumers must be served 
as well as protected, and too often our regulatory agencies 
have failed to strike this careful balance.
    Every day I hear from companies, big and small, banks and 
nonbanks, that struggle to understand these agencies directives 
or that offer a product that these agencies have targeted for 
elimination. So these experiences have emphasized five 
principles that we advocate: first, companies and consumers 
benefit from clear rules of the road; second, rationing credit 
does not protect consumers; third, if everyone is in charge, 
then no one is in charge; and the fourth and the fifth are 
particular to the CFPB. The fourth is that the CFPB must 
respect the clear limits on its authority; and the fifth is 
that the CFPB must be transparent to consumers and to Congress. 
Now, these principles likewise obviously have informed 
Congress' oversight of the Bureau and its fellow banking 
regulators. Indeed, many of the proposals under consideration 
today would help address the problems businesses wrestle with 
every day in the consumer financial services marketplace. My 
testimony addresses most of the bills that are the subject of 
today's hearing, but in my statement, I am going to focus on 
four in particular.
    The first is, Mr. Chairman, your H.R. 1266, the Financial 
Product Safety Commission Act of 2015, which would bring the 
CFPB in line with other independent agencies by codifying the 
commission structure that was originally proposed by this 
committee. The Chamber strongly supports this legislation and 
believes that by incorporating the controls and oversight that 
apply to other Federal regulatory agencies, Congress will 
ensure far greater stability over the long term for those who 
provide and rely upon credit.
    In addition, the inclusion of a variety of viewpoints in a 
more structured decision-making process will better inform 
complex policymaking and cure some of the transparency and 
jurisdictional issues that have emerged in the Bureau's 
development.
    The second is H.R. 1737, the Reforming CFPB Indirect Auto 
Financing Guidance Act, which would bring clear rules of the 
road to the indirect auto lending market. As this subcommittee 
well knows, the Bureau has created enormous uncertainty in the 
indirect auto lending market by issuing guidance without notice 
and comment and undertaking enforcement and supervisory actions 
based on post hoc statistical models. They failed to share its 
analysis or assumptions, thus depriving lenders of the ability 
to anticipate the Bureau's analysis. The Chamber strongly 
supports this legislation which would eliminate the Bureau's 
2013 guidance, and impose reasonable conditions on any future 
guidance on this topic.
    Next is H.R. 1941, the Financial Institutions Examination 
Fairness and Reform Act which would help eliminate ambiguities 
and delays in the exam process by requiring better 
communication between bank examiners, including the bureaus and 
financial institutions. It would also create an office of 
independent examination review within the Federal Financial 
Institutions Examination Council (FFIEC) that would hear 
appeals of material supervisory determinations contained in a 
final examination.
    The Chamber strongly supports this legislation because it 
would address a number of well-documented problems with the 
supervision process, freeing up these institutions to provide 
the liquidity and capital that Main Street businesses need to 
grow.
    H.R. 766, the Financial Institution Consumer Protection Act 
of 2015, would establish clear standards that the Federal 
banking agencies must abide by when using their leverage to 
effectively shut down lawful businesses by denying them banking 
services, a program called ``Operation Chokepoint.'' Government 
agencies have the tools to root out fraud and predation, and 
the Chamber supports their efforts to do so, but under 
Operation Chokepoint, government officials strongly discourage 
financial institutions from providing banking services to 
entire categories of lawful businesses based on reputational 
risk. This has left banks with little choice but to terminate 
longstanding relationships with customers because of explicit 
or implicit threats from their regulator. H.R. 766 would ensure 
that the government's power to terminate banking relationships 
would be used only where there is a material reason for doing 
so.
    Again, the Chamber supports a number of other bills on the 
docket for this afternoon, but I wanted to call attention to 
these four in particular. Thank you again, and I am happy to 
answer any questions you may have.
    [The prepared statement of Mr. Sharp can be found on page 
58 of the appendix.]
    Chairman Neugebauer. I thank the gentleman, and now Ms. 
Peirce, you are recognized for 5 minutes.

STATEMENT OF HESTER PEIRCE, DIRECTOR, FINANCIAL MARKETS WORKING 
  GROUP, AND SENIOR RESEARCH FELLOW, THE MERCATUS CENTER, THE 
                    GEORGE MASON UNIVERSITY

    Ms. Peirce. Thank you, Chairman Neugebauer, Ranking Member 
Clay, and members of the subcommittee. It is a pleasure to be 
here today. I commend the subcommittee for undertaking to 
reform the financial regulatory system so that financial 
markets can work effectively, efficiently, and safely for the 
American public. I can't recommend that you take a particular 
position on any of these bills today, but I can point out some 
areas in which I think the bills could have a positive effect 
on the financial regulatory structure, specifically related to 
increasing regulatory accountability, making sure that 
decisions lie with people who have the interests, have the 
right incentives, and who have the right information to make 
those decisions, and, also, adjusting some rules where there 
have been changed circumstances or where there are unintended 
consequences of the existing rules.
    Turning to the first of these potential benefits, 
increasing regulatory accountability, some of the bills before 
us today would enhance the requirements on regulators to be 
transparent about what they are planning to do and why they are 
planning to do it, and would then hold them accountable for the 
decisions that they make. Among these bills is the bill that 
would require the exam process to be revamped, and specifically 
the change that would require there to be an outside place for 
a financial institution that felt there was a mistake in an 
examination report. That financial institution could go to this 
outside entity for an objective third-party opinion, and I 
think that would be a valuable way to increase regulatory 
accountability.
    Another bill related to the National Credit Union 
Association (NCUA) would provide some sunlight on the NCUA's 
budget. It is not the same as the congressional appropriations 
process, but at least it would allow the public to have some 
input in the priorities of the NCUA and how it is spending its 
money, and it would guard against fears of regulatory capture.
    The bill that would change the CFPB into a commission would 
also increase regulatory accountability by making policy more 
consistent over time and also by ensuring that different views 
of how consumers could be protected would be brought into the 
debate. And similarly, the bill that would require the CFPB to 
do the indirect auto lending through a rule rather than through 
guidance would ensure not only that the public would have a 
chance to see what the Bureau was doing, but also to comment on 
it, and the Bureau would be required to conduct some cost 
benefit analysis as well. Efforts to increase regulatory 
accountability are designed to help regulators to be more 
effective and more consistent, to spend their money more 
wisely, and also to take into account more opinions about how 
objectives can be achieved.
    A second way that today's bills could improve the financial 
regulatory structure is by shifting responsibility for 
decisions away from regulators who don't have access to the on-
the-ground information and putting those decisions with the 
financial institutions that actually have the on-the-ground 
information and have an incentive to make a good decision, 
because they could lose money if they don't.
    So, for example, the qualified mortgage bill, which would 
expand the definition of qualified mortgages to include 
mortgages that are held on portfolio, recognizes the fact that 
when a financial institution is going to hold a loan in 
portfolio, it has an incentive to do good underwriting.
    Similarly, the Operation Chokepoint bills recognize that it 
is not regulators who can make a decision about what customers 
a bank should and should not deal with, but the bank itself, 
which has a real interest in maintaining its reputation, and 
can make those decisions itself.
    Finally, today's bills could improve regulation by taking 
into account changed circumstances and unintended consequences 
of existing regulations. Both regulators and the regulated 
industry have raised some issues with implementation and 
administration of some of the current regulations. So, for 
example, the bill that would facilitate communication between 
the FBI and State regulators regarding criminal backgrounds 
could streamline that relationship.
    Another bill that would allow there to be a grace period 
for new mortgage disclosure requirements is a reflection of the 
fact that much of the industry is not ready to comply, and this 
could result in dislocation for consumers as they try to get 
loans.
    And finally, the bill that would extend the examination 
period to 18 months for banks of $1 billion or below, 
recognizes the regulatory burdens on small banks. Regulatory 
reforms like the ones that are before us today will not fix the 
financial crisis, but they are positive steps towards creating 
a financial structure that works better for the American 
economy and the American consumer. Thank you.
    [The prepared statement of Ms. Peirce can be found on page 
52 of the appendix.]
    Chairman Neugebauer. Thank you. Mr. Ireland, you are now 
recognized for 5 minutes.

 STATEMENT OF OLIVER IRELAND, PARTNER, MORRISON & FOERSTER LLP

    Mr. Ireland. Thank you, Chairman Neugebauer and Ranking 
Member Clay. It is a pleasure to be here today. My name is 
Oliver Ireland. I am an attorney in the financial services 
practice at Morrison & Foerster. I have been an attorney in the 
financial services area for over 40 years: 26 years with the 
Federal Reserve, 15 years as an Associate General Counsel at 
the Board in Washington; and the last 15 years in private 
practice.
    The subcommittee has a dozen proposals before it today. 
They are detailed. Like any legislative proposals, people can 
quarrel about details, but I think the thrust of all of these 
proposals, the basic purposes, are good purposes, and they 
ought to be pursued. I am going to try to say a couple of words 
about each one, because I don't want to leave anything out 
because they are all important to their sponsors, and they are 
all important to a constituency.
    I spent a long time with the Federal Reserve Board, a 
collegial board, and collegial board decision-making, I think, 
has vast benefits over an individual director and individual 
secretary decision-making. You get stability. You get 
continuity. You get expertise. I think strongly that H.R. 1266 
is a very good bill.
    H.R. 1737 would deal with the issuance of guidance and 
suggests that auto lending guidance, indirect auto lending 
guidance be done through notice and comment. I think all 
guidance put out by the Bureau would benefit from notice and 
comment. I think that is a good proposal.
    H.R. 1941, on changes to the examination process, I have 
been on both sides of that process. Examiners are expert at 
what they do, but they are not infallible. I think an alternate 
review process is in everybody's interests.
    The safe harbors from the QM rule, both the short-term safe 
harbor for implementing the rule, and the safe harbor for held-
on balance sheet mortgages, I think, are important. When you 
hold mortgages on balance sheet, two things happen: one, the 
institution realizes it is going to retain the risk of that 
mortgage and has a stronger incentive for underwriting; and 
two, it is more readily available for examiner scrutiny and 
examiner criticism if there is any problem with the 
underwriting standards.
    The bills on Operation Chokepoint, if businesses are 
engaged in illegal activity, the appropriate solution is to go 
after the business and prosecute the business, not to cut off 
its banking services. Banking services are the lifeblood of 
businesses, and without building in the protections for that 
lifeblood, things like Operation Chokepoint, whether 
implemented by the Justice Department or bank regulators under 
the guise of reputational risk, I think are a disservice.
    The increase in size for the 18-month exam cycle allows for 
more risk-based exams. It not only helps the institutions; I 
think it helps the agencies in the process.
    The charter change without having to do a charter change 
but the powers change for thrifts through the OCC, I think is 
an option that makes a lot of sense. It is streamlines what 
would otherwise be a complex regulatory process.
    H.R. 2287 on the NCUA budget, greater transparency in 
budgeting is a good public policy, and I think that should be 
pursued. H.R. 2091 is an amendment to the FCRA that deals with 
child support orders, again, a streamlining process to make the 
administration of child support by States more efficient. That 
makes a lot of sense.
    Finally, the Williams bill, which would streamline 
background checks that are currently available for the 
Conference of State Bank Supervisors mortgage database for 
other State regulatory purposes, is also an efficiency in the 
regulatory process that ought to be pursued. Thank you for your 
attention. I would be happy to respond to any questions.
    [The prepared statement of Mr. Ireland can be found on page 
40 of the appendix.]
    Chairman Neugebauer. I thank the gentleman, and I recognize 
Mr. Miller for 5 minutes.

   STATEMENT OF THE HONORABLE BRAD MILLER, FORMER MEMBER OF 
      CONGRESS, AND SENIOR FELLOW, THE ROOSEVELT INSTITUTE

    Mr. Miller. Thank you, and good afternoon, Chairman 
Neugebauer, Ranking Member Clay, and members of the 
subcommittee. I am Brad Miller. I served for an eventful decade 
in the House of Representatives and as a member of the House 
Financial Services Committee. I am now a senior fellow at the 
Roosevelt Institute and Of Counsel to the firm of Grais & 
Ellsworth. The invitation to appear today asked me to assess 12 
legislative proposals--I got the list on Tuesday--on a variety 
of topics, and to do that in 5 minutes. Like the other 
witnesses, I will not really attempt that. But there is an 
organizing principle. This pudding does have a theme. The bills 
are based on a narrative of the financial crisis that industry 
participants were victims, not perpetrators. Lending practices 
that might appear predatory to the unsophisticated, like me, 
were really an honest effort to meet consumer needs.
    So, the industry should now be relieved of any annoying 
regulatory requirement that was based on an unjust accusation 
to the contrary. That narrative has been dutifully repeated in 
Washington and on Wall Street for years, but it is not credible 
with most Americans, because it is not true. The bills would 
unlearn the real lessons of the crisis. Here are some examples: 
There is an old joke that a man jumped off the Empire State 
Building, and as he passed the 60th floor, he said, ``So far, 
so good.'' H.R. 1941 would codify ``so far, so good'' as the 
examination standard for commercial real estate loans held by 
federally-insured institutions, large and small alike. If a 
developer made payments on the loan, the examiner would treat 
the loan as performing and look no further. It would not matter 
if the loan was interest-only and had an impending balloon 
payment, if the collateral for the loan had collapsed in value 
and the loan was now deeply underwater, if the project for 
which the developer had borrowed was in deep trouble and the 
loan was very large, if that bank and other banks had many 
other such loans, or the developer's creditworthiness had 
declined and the developer could not now qualify for a rollover 
loan, the legislation would obviously make it very difficult 
for regulators to keep a problem from becoming a catastrophe, 
not just for a given institution, but for the financial system.
    The bill also creates an appeal from any supervisory 
determination that provides far more process than is due. There 
is already an appeal process. An appeal would not just review 
the agency's decision for error or caprice, but would be a de 
novo review with no deference to the agency's fact-finding, 
expertise, or judgment. In other words, it would be a second 
bite of the apple. In extremis, too-big-to-fail banks would 
hire lawyers to block supervisory actions by appeal after 
appeal and cripple efforts to prevent or contain a crisis.
    H.R. 1210 exempts depository institutions, again, large and 
small alike, from the ability-to-repay rules, for mortgages 
held in an institution's portfolio not sold to the 
securitization market, which is still comatose anyway. The 
argument is that the purpose of the requirement was to prevent 
foolish mortgages that create systemic risk, and lenders would 
not let credit standards slide again if they kept the 
mortgages. That argument is not supported by the experience of 
the financial crisis. Washington Mutual and Wachovia, among 
others, got in deep trouble because of portfolio mortgages.
    More important, the purpose of the ability-to-repay rule is 
equally to protect consumers against predatory, equity-
stripping mortgages. Asset-based predatory mortgages are no 
less predatory if held in portfolio, and homeowners can lose 
all of the equity in their home, which for most homeowners is 
the bulk of their life's savings, and still pose no risk to 
predatory lenders, even if held entirely in portfolio.
    Finally, the failure of government agencies to investigate 
misconduct in the financial sector, including criminal fraud, 
and hold powerful institutions accountable economically has 
offended the sense of justice of millions of Americans, 
including me. Important government powers to investigate 
criminal conduct have gathered dust while Americans seethed. 
H.R. 766 provides a surprising solution to that problem. It 
strips the Department of Justice of much of the power to 
investigate and hold financial institutions accountable for 
misconduct in which they had a role. We have disagreed in 
talking amongst ourselves on the panel and in our conversations 
with staff on exactly what H.R. 766 does, but there is no 
question that it limits--the bill sponsor is here and perhaps 
can explain it--the important investigative and enforcement 
powers of the Financial Institutions Reform, Recovery, and 
Enforcement Act (FIRREA) for financial crimes in which 
institutions played a role.
    The narrative of the financial crisis that I described 
earlier is very popular at political fundraisers in Washington, 
but go home this weekend and ask the people you represent, ask 
them if they think Wall Street was unjustly accused of 
wrongdoing in the financial crisis and since, and that law 
enforcement agencies and government regulators have bullied 
them. You probably will get a very different response than what 
you get at fundraisers. Thank you, Mr. Chairman.
    [The prepared statement of Mr. Miller can be found on page 
49 of the appendix.]
    Chairman Neugebauer. Thank you, gentlemen. I would remind 
the panelists that your full written testimony will be made a 
part of the record, and I thank you.
    I now recognize myself for 5 minutes to begin questions. 
This is a simple question: Do you think replacing the single 
director with a five-person, bipartisan commission as 
leadership structure weakens consumer protection. Mr. Sharp?
    Mr. Sharp. No. Absolutely not. Again, our view of the world 
is that the more viewpoints you have in the decision-making 
process, the more likely you are to arrive at a decision that 
balances the equities on both sides so consumers are protected, 
and they are still served. There are still products and 
services out there for them.
    Chairman Neugebauer. Thank you. Ms. Peirce, do you think it 
weakens consumer protection?
    Ms. Peirce. No. I think it strengthens it by ensuring, as 
Mr. Sharp said, that there are multiple perspectives, but also 
ensuring continuity over time so you don't see massive swings 
in policy as the Administration changes.
    Chairman Neugebauer. Mr. Ireland, does it weaken consumer 
protection?
    Mr. Ireland. No. For the reasons already stated, it 
strengthens it.
    Chairman Neugebauer. Mr. Miller?
    Mr. Miller. Yes, it does weaken the agency. There are some 
downsides to it, as Ms. Peirce said, in the possible lack of 
continuity; but a single agency director is obviously a 
stronger and more agile agency. I have been interested in 
hearing the description of the original proposal in which I did 
play a very significant role, as I think Mr. Neugebauer said. 
And the idea that Elizabeth Warren and Bill Delahunt and Barney 
Frank and I sat around and thought, we really need a five-
agency commission, no. We said we really needed an agency, not 
the seven agencies that have some consumer protection powers, 
but it is always secondary to safety and soundness.
    Chairman Neugebauer. But the question is, do you believe 
that a single director is the better solution? Initially, 
everybody thought that the five-person commission was. And so I 
want you to explain then how from the five to the one, how you 
felt like that strengthened consumer protection?
    Mr. Miller. It was, as you have noted, Elizabeth Warren's 
idea. What did she know about how Washington works? She was a 
professor at Harvard Law School. Bill Delahunt and I got 
involved. I was a relatively junior Member. I didn't know how 
Washington worked either, really. And, yes, Barney Frank was 
one of the original cosponsors of the bill that Bill Delahunt 
and I introduced. But he was the one who said if you want that 
agency to work, you need a single director for a variety of 
reasons. One is it is going to be involved in turf battles, 
particularly with the OCC, which has a single director. And 
they would be at a huge disadvantage. They are going to need to 
be quick on their feet to respond to new practices in industry, 
and a five-member commission will not be quick on its feet. And 
what he did not say--
    Chairman Neugebauer. I thank the gentlemen. My time is 
limited. And I think it is interesting that the President of 
the United States, the Chairman of the Financial Services 
Committee and a number of its members, and the original author 
of the concept of the CFPB all thought that a five-person 
commission was a better synopsis.
    Mr. Miller. I had more, by the way.
    Chairman Neugebauer. Some of my colleagues, and even 
Ranking Member Waters, who is not here, is, so if that is a 
good solution, so then I am thinking about in the next 
Administration, should it turn to be a Republican 
Administration, that you have the CFPB Director be Randy 
Neugebauer; and what would be the impact of the direction of 
that agency where you had another, basically a little bit 
different perspective on consumer protection and how we elect 
consistency because now you have this person who is trying to 
take the agency obviously in a much different direction. So I 
think the argument that I would make is that if you have a 
five-person commission, where there is a bipartisan commission, 
that the continuity is a little bit more appropriate.
    Mr. Ireland, you spent 15 years as an Associate General 
Counsel at the Federal Reserve, where undoubtedly you saw 
firsthand how boards operate at a regulatory agency. Can you 
elaborate a little bit more? You mentioned it a little bit in 
your testimony, how you felt like that brought continuity at 
the Federal Reserve.
    Mr. Ireland. First of all, as you mentioned, agility is 
great as long as it is going in your direction. If it goes in 
the other direction, it goes in the other direction just as 
quickly. The seven-member board at the Federal Reserve brought 
expertise from every board member, and we were able to divide 
up the board into committees to address particular, different 
areas of the board's responsibility and take advantage of the 
seven board members and their expertise, and by their open 
debate in board meetings arrive at far better decisions than 
any one of them could arrive at by themselves.
    Chairman Neugebauer. I thank the gentleman. My time has 
expired. And now the gentleman from Missouri, Mr. Clay, is 
recognized for 5 minutes.
    Mr. Clay. Thank you, Mr. Chairman. You know, other 
regulators governed by bipartisan commissions often fall victim 
to dysfunction and infighting that undermines their ability to 
act decisively. Some examples are the SEC, the FEC, and a 
number of other agencies governed by bipartisan commissions are 
frequently subjected to periods of gridlock that prevent the 
agencies from acting.
    Furthermore, the single directorate is common by banking 
regulators, such as the OCC and the FHFA, and the Bureau has 
been able to do its work to date effectively through a single 
director. Mr. Miller, we often hear from the Majority that if 
the Republicans were to win the White House, Democrats would 
prefer a bipartisan commission to a single director. How do you 
respond to this particular critique of the CFPB's governance 
structure?
    Mr. Miller. I have a long list of horrors if Republicans 
won the White House. This would be on it. I think that the lack 
of continuity is a problem. As I said earlier, I think that 
there is obviously a tradeoff. There are some advantages of a 
five-member commission. But a single, Mr. Clay--as she said 
correctly, some of the five-member commissions don't work that 
well. And by the way, five-member commissions can turn over 
fairly quickly as well. There is not necessarily a huge amount 
of continuity with respect to five-member commissions. Not 
everybody serves out their full term.
    Also, with the D.C. Circuit having interpreted ``arbitrary 
and capricious'' for their standard of review to mean, ``would 
I have done exactly the same thing?'' it becomes much harder 
for agencies to present a rule in a coherent, tight way, to 
survive judicial review because some members of this committee 
probably have no experience at all with compromise, but I have, 
as a Member of the House, and as a member of the State 
legislature in North Carolina, and it is sometimes kind of 
ugly. And sometimes the only explanation I had for certain 
sections of the bill was, yes, I thought that was stupid, but I 
needed votes, and that was the only way I could get them. That 
is not really what you want to take to the D.C. Circuit in 
trying to defend an agency rule on judicial review, but that is 
what you end up with when you have to put together three votes 
on a five-member commission.
    Mr. Clay. Let me shift to H.R. 1737, the reforming CFPB 
Indirect Auto Financing Guidance Act. Mr. Miller, according to 
the Center for Responsible Lending, African-Americans receive 
higher interest rates on car loans obtained from car dealers 
than similarly situated Caucasian borrowers, even after 
controlling for several credit measures, while those who 
receive loans directly from banks or credit unions do not.
    In addition, African-Americans pay higher purchase prices 
for their cars, even after actively negotiating with the 
seller. In light of the longstanding and well-documented 
concerns about car-buying experience from minorities, do you 
think our time is better spent seeking to nullify guidance that 
clarifies the CFPB supervisory expectation for indirect auto 
lenders, or should our time be spent actually rooting out 
discriminatory practices?
    Mr. Miller. Yes. With respect to auto loans, just as with 
mortgages, I think it is the HMDA data which shows that it 
costs about 25 percent, or about a quarter of a basis point 
more for ``borrowing while Black.'' It costs, according, 
according to CRL, 29 to 40 basis points more, which could be 
several hundred dollars over the course of a car loan for 
``borrowing while Black.'' It is perhaps not quite as expensive 
to ``borrow while Brown,'' but Latinos are also discriminated 
against. What the CFPB did is--no. CFPB cannot regulate car 
lending by a dealer to a purchaser, but then they sell those to 
banks, and banks end up with discriminatory loans, and they 
have liability for that. And what CFPB did in their guidance is 
say failure gently--you know you are going to have a problem, 
and instead of using that kickback that you are paying dealers 
if they talk somebody into a higher interest rate than what 
they should have gotten, which ends up with a discriminatory 
lending portfolio, maybe you should consider paying them a flat 
fee instead.
    Chairman Neugebauer. The gentleman's time has expired.
    Mr. Miller. That is a fairly modest bit of advice.
    Mr. Clay. Thank you for your response.
    Chairman Neugebauer. I now recognize the gentleman from New 
Mexico, the vice chairman of the subcommittee, Mr. Pearce.
    Mr. Pearce. Thank you, Mr. Chairman. I appreciate all of 
the testimony. Mr. Miller, it is good to see you again in front 
of this committee.
    Mr. Sharp, the CFPB announced last week regarding TILA-
RESPA that they were going to be sensitive. Is that going to 
really impact the responses of the institutions as they move 
forward in this process?
    Mr. Sharp. I can tell you based on conversations not just 
about this particular instance, but other instances of sort of 
take our word for it, we will tread lightly here and give you a 
reasonable grace period, that doesn't build a lot of confidence 
in the business community.
    Mr. Pearce. So the result of not having confidence--Mr. 
Ireland, do you have an opinion about businesses that don't 
have any confidence?
    Mr. Ireland. They are not going to make loans.
    Mr. Pearce. Yes. So, Mr. Miller, do you have any opinion on 
those two opinions?
    Mr. Miller. I think it is better business as confidence. I 
did not hear your question; I'm sorry. I have both my hearing 
aids--
    Mr. Pearce. I apologize. The question was the TILA-RESPA, 
and across the country, the companies have said, hey, we don't 
mind which way you are going, but you are just moving too fast. 
One small company, a very small company in my hometown--my 
hometown has 30,000 to 40,000 people--spent $100,000 for the 
software that they are going to need, and they are not sure 
that is going to cure the problem. So we have been pressing--
Mr. Sherman and myself actually put in legislation saying that 
hold harmless until the end of the year at least. Give people 
some breathing room. And so my question was, and the CFPB came 
out this week as a good example of the agility you mentioned 
that they are going to have under the single director, they 
finally announced that they are going to be sensitive to the 
people. So my question is, is sensitive going to work?
    Mr. Miller. What Rich Cordray has said is that if a lender 
is acting in good faith, they are not going to bring 
enforcement measures. They are going to look at--
    Mr. Pearce. I think he said he is going to be sensitive. We 
asked him to roll off of the thing, and you just heard two 
people say it probably isn't going to work.
    Mr. Miller. I think it depends on the circumstances. What 
he said is if someone is acting in good faith and makes an 
innocent technical violation, they are not going to bring an 
enforcement action.
    Mr. Pearce. Trust us. Mr. Ireland, I think, hits the nail 
on the head. They are not going to make loans.
    Mr. Miller. It has also been 2 years. It seems like that is 
a long time to comply. You said they have been moving really 
quickly, but the--
    Mr. Pearce. I was interested in your comments. So many of 
the small banks in my district feel like they didn't cause the 
problems in 2008, but they feel like the bulk of the regulation 
has hit on them. Mr. Miller, my question is, do you see the 
community bankers as perpetrators? I find your comments to be 
leading in that direction. You seem to be a student of the 
CFPB. Are the community banks perpetrators?
    Mr. Miller. No. Community banks were relatively innocent 
actors, but it has been the experience of the last decade or 
more, probably actually the experience of all of human history, 
that the worst actors will migrate to the least regulated 
portion of the market.
    Mr. Pearce. Just follow me on this if you would, that the 
community banks in my district make loans for--50 percent of 
the homes in my district are manufactured housing. And many 
banks won't give loans for them. They weren't listed because 
they have to have a balloon note, they are not listed as 
qualifying mortgages, so they hold them in portfolio. But your 
testimony seems to assume that portfolio loans indicate that it 
is out there holding people up. Your testimony has a bias 
against the portfolio loans. Nobody else, nobody from 
Washington, nobody from New York, is going to come out and lend 
money for mobile homes in my district.
    The only way they can do it is hold in portfolio, and yet 
you decide that is predatory lending. You decide that somehow 
these people are perpetrators. All they are trying to do is 
figure out how to loan money to poor people who need a place to 
live. So I am not sure about the bias that your testimony 
presents toward the community bankers.
    Mr. Miller. I do have a little bit of time to respond to 
that. No. I think community bankers were better actors in the 
last decade than the nonbank lenders. The nonbank lenders were 
not regulated. They were not subject to consumer protection. 
One of the things the GAO has found is that actually that 
aspect of Dodd-Frank has helped community bankers because their 
nonbank competitors are now actually subject to regulation.
    Mr. Pearce. Personally, I don't find that, because they are 
saying, we are choked under the regulatory burden, and we are 
going to quit lending to poor people, basically is what is 
going to happen. Thank you, Mr. Chairman. I yield back.
    Chairman Neugebauer. The time of the gentleman has expired. 
The gentleman from Georgia, Mr. Scott, is recognized for 5 
minutes.
    Mr. Scott. Thank you, Mr. Chairman. I would like to 
continue that line of questioning because I think it is a real 
centerpiece of this hearing, dealing with credit unions and the 
small banks. There is actually no question, Mr. Miller, and I 
think you will agree--it is good to have you back with us, my 
friend--but look, credit unions and banks need more certainty 
that their good faith efforts do comply. While they are still 
meeting their consumer demand, that does not expose lenders to 
litigation during the initial period after the regulations 
become effective.
    I think anybody looking at this would agree that it appears 
that this industry does need more time to implement this 
regulation, and I want a comment from the whole panel on this. 
Because these credit unions and small banks carry a tremendous 
load and a tremendous burden. They didn't cause the Wall Street 
breakdown. Now what you have that is so devastating is this 
rule and regulation is 1,888 pages. Why is there a problem 
not--and they are saying it is difficult to meet the August 1st 
deadline, and all they are asking for is more time and a safe 
harbor through the end of the year. Now, what is wrong with 
that? Can anybody--I guess there is nothing wrong with it. 
Thank you.
    Mr. Miller. Is that me? Mr. Scott?
    Mr. Scott. Yes, sir.
    Mr. Miller. As I said earlier, Rich Cordray has said--and I 
think he has generally acted pretty reasonably and has been 
consultative with the regulated community as well as with 
consumer groups--that they are going to take into account the 
circumstances and the nature of the conduct, and are not going 
to bring enforcement actions where there is good faith conduct, 
where there might be a technical violation. With respect to 
civil liability, there has really not been a whole lot of 
litigation under either RESPA or TILA. RESPA does not create a 
private right of action.
    Mr. Scott. Can't we get some attention to the major concern 
that these stakeholders are not able to test the process that 
is used to develop these new disclosures and real-life 
transactions before this implementation date? They are saying 
this. I don't understand why there is this hesitation if the 
consumer protection agency is there to protect us. Don't you 
see where if we don't give this safe harbor, that it could 
cause human error? We are not talking about a rule or 
regulation of 10 pages. We are talking about 1,888 pages. I 
don't see why there is this objection to this bill to provide, 
what is it, 5 months maybe from August to December? I don't 
understand that, particularly if the industry itself is crying 
out and has legitimate concerns. So if the result is, and they 
say that this could bring about human errors, that ought to be 
enough of an alarm bell to say, okay, we don't want to harm the 
consumers. We want to protect the consumers.
    Mr. Miller. Mr. Scott, again, with respect to enforcement 
actions, I have said already what Richard Cordray, the Director 
of the CFPB has said. With respect to civil liability, you 
can't sue at all under RESPA. There is no private right of 
action. Under TILA, you have to show damages. To get damages, 
you have to show you were damaged. It is pretty hard to imagine 
a borrower showing significant damages for a technical, 
innocent violation of the rule. No lawyer is going to take that 
case. No court is going to award damages.
    Mr. Scott. Then why would you object to the safe harbor? 
Why would you object--
    Mr. Miller. Because if a consumer has been damaged and the 
conduct was not in good faith, was not innocent, was not 
technical, then we should not strip consumers--
    Mr. Scott. Mr. Miller, that is just speculation.
    Chairman Neugebauer. The Chair now recognizes the gentleman 
from Kentucky, Mr. Barr, for 5 minutes.
    Mr. Barr. Thank you, Mr. Chairman. Ms. Peirce, I was 
particularly impressed with your testimony relating to the 
impact that the QM rule has had on availability of affordable 
mortgage credit, and, in particular, your remarks that a third 
of the National Association of REALTORS survey respondents 
reported being unable to close mortgages due to requirements of 
the Qualified Mortgage Rule in the first quarter of 2015, and 
that, obviously, this has led to some mortgage originators and 
lenders exiting the mortgage business altogether. What do you 
have to say about the combination of these restrictive QM rules 
with a GSE exemption that allows banks to originate non-QM 
loans and then sell them off into a taxpayer-supported Fannie 
Mae or Freddie Mac? What does that do to the financial system?
    Ms. Peirce. I think it perpetuates the problems that we saw 
leading to the crisis, which was that the GSEs were too 
involved in our mortgage market, and rather than paring back 
their role, it is sort of perverse, but we have seen their role 
increase since the crisis, and we really need to address that.
    Mr. Barr. So Ms. Peirce, Mr. Ireland, would you say that 
the QM rule, coupled with the GSE exemption, encourages risk 
being removed from shareholders of banks and on to the backs of 
taxpayers?
    Ms. Peirce. I think that is exactly the opposite of what we 
want to do. We want to make sure that the banks who are making 
the loans are taking the care when they are making the loans 
because they know they are going to hold them. Or even if they 
are going to sell them to a private market participant, they 
know they have to prove that they are good loans.
    Mr. Barr. Mr. Ireland, I was impressed with your testimony 
when you said that the portfolio lending and mortgage access 
legislation that I have introduced would not only encourage 
better, more sound underwriting, because the institution would 
retain the risk, but also the second point you made that it 
would allow for better exam scrutiny, regulator scrutiny of the 
banks or the credit unions mortgage loan portfolio. Can you 
elaborate on that?
    Mr. Ireland. Depending on the size of the bank, the 
examiners are going to come in on a yearly basis, or an 18-
month basis, and look at the loan portfolio and look at the 
underwriting standards, and they are going to be able to see 
how those loans are performing. They are going to see how those 
loans are being paid back, and they are going to see whether or 
not the bank has good or predatory lending standards. That is 
not where our problem is, and it wasn't where our problem was 
in the financial crisis.
    Mr. Barr. Let me jump into Mr. Miller's argument or concern 
that he has with my legislation. It is the same concern 
expressed by Director Cordray, and they cite Washington Mutual 
and Wachovia. My view is that if you are an institution, a 
regional institution, a large institution like Wachovia, and 
you are loading up with subprime mortgages, you are probably an 
institution that should fail, frankly. But my question to you, 
Mr. Ireland, is in light of the scrutiny that a lot of these 
institutions are under right now with the rigorous exams, what 
is the likelihood that Mr. Miller's parade of horribles would 
come to pass post-financial crisis? And what do you say about 
the criticism of an institution loading up on subprime 
mortgages?
    Mr. Ireland. First of all, there were a lot of mistakes 
that led up to the financial crisis, and some of them were 
regulatory. There were some oversights by some regulators, but, 
by and large, the problem was not due to held-in-portfolio 
mortgages. I think that the regulators today are making every 
effort not to make those mistakes again. And what we are seeing 
is rigorous examination processes, questions being asked 
wherever there are underwriting issues or regulatory issues; 
and I think the likelihood that a regional institution builds a 
substantial portfolio badly underwritten residential mortgages 
is vastly smaller than it was in the past.
    Mr. Barr. Mr. Miller, welcome back to the committee. Since 
we have addressed your particular concerns, I want to give you 
a chance here, but one of the things that you also were worried 
about was these equity-stripping mortgages. When you were in 
the committee--I will just have to quote you here--in a hearing 
in 2005 entitled, ``Legislative Solutions to Abusive Mortgage 
Lending Practices,'' you actually advocated for access to the 
subprime market, and for individuals to borrow money against 
their home. Isn't that exactly the kind of equity-stripping 
product that you are now criticizing?
    Mr. Miller. Mr. Barr, I think you have an incomplete 
knowledge of my record on that issue. I introduced legislation 
in 2004 to regulate subprime mortgage lending, predatory 
mortgage lending. The argument by the industry and by their 
advocates, their allies in Congress, was that you are going to 
take away all of our ability to make loans to people who need 
credit. And I said there is a place for loans with different 
terms. But what was happening by then was that almost the 
entire market for subprime had displaced that legitimate 
differences based upon underwriting standards.
    Chairman Neugebauer. I'm sorry. The gentleman's time has 
expired. The Chair is going to be pretty strict on this because 
we are going to have votes soon. So if the Members have 
questions, make sure that within your 5 minutes, you leave time 
for the witnesses to answer those questions. I now recognize 
the gentlewoman from New York, Mrs. Maloney, for 5 minutes.
    Mrs. Maloney. Thank you. And I thank all the panelists, 
particularly my good friend and former colleague, Brad Miller. 
It is very good to see you again. I would like to ask 
Congressman Miller about the NCUA Budget Transparency Act, 
which would require the NCUA to publish its draft budget in the 
Federal Register and hold a public hearing on its budget. It is 
my understanding that no other banking regulator is required to 
hold these hearings, so it is a little unclear to me why NCUA 
should be singled out for this particular requirement.
    I also understand that NCUA voluntarily held hearings on 
its budget prior to the financial crisis, and that the industry 
stakeholders consistently lobbied them during these hearings to 
cut their budget. And as a result of these budget cuts, the 
NCUA itself admits that it wasn't fully prepared when the 
crisis hit. So according to a letter from NCUA, these budget 
cuts meant that it was ``insufficiently resourced'' to address 
the financial crisis. I would like unanimous consent to place 
this letter into the record, Mr. Chairman.
    Chairman Neugebauer. Without objection, it is so ordered.
    Mrs. Maloney. So I guess my question is, knowing what we 
know now, do you think it is wise to make these public hearings 
on NCUA's budget mandatory?
    Mr. Miller. Mrs. Maloney, I hate to say this, but of the 12 
bills, that is not one to which I have given a great deal of 
attention. I do know that, as you said, the other financial 
regulators, for the most part, certainly the safety and 
soundness regulators, have an independent funding source that 
comes from the regulated, and they have all provided 
justifications that are fairly vague, given how much money is 
involved to Congress as part of their statute, but they have 
not had hearings, and there has been some limit to the extent 
to which Congress can intrude, which has made those industries, 
for the most part, stronger. Because those regulatory agencies 
that depend upon annual appropriations like the FTC, like the 
CFTC, like the old OFHEO, which preceded the FHFA, that needed 
annual appropriations, those regulated by that agency could 
come in and lobby Congress to cut back on their ability to 
investigate conduct in the industry. That was particularly true 
of OFHEO. OFHEO was probably the most captured regulatory 
agency in all of U.S. history. They were supposed to regulate 
Fannie Mae and Freddie Mac, and Fannie and Freddie were both 
very powerful in Washington and were able to keep OFHEO about 
as captured as an agency could possibly be.
    So I am inclined to agree with you, but I have to admit 
this is not something to which I have given a great deal of 
thought.
    Mrs. Maloney. What about the requirement that they are the 
only banking regulator that is required to hold these hearings? 
Why should they be singled out?
    Mr. Miller. Like I said, I am inclined to agree with you. 
Since the OCC does not, since the FDIC does not--I hate to say 
the CFPB, in this room--but since the OCC does not, I am 
inclined to think the NCUA should not either.
    Mrs. Maloney. Then I would also like to ask you about H.R. 
2213, which would create a statutory safe harbor from the 
enforcement of CFPB's new integrated disclosure form through 
the end of 2015. And I led a bipartisan letter with Mr. Barr 
from Kentucky--I don't think he is here right now; I don't see 
him--asking for a grace period on the integrated disclosure 
requirement through the end of the year for lenders who make 
good faith efforts to comply, and this is what the CFPB did for 
the QM rule as well; and 254 Members, including many Members on 
this committee, signed on to our letter, and last week, the 
CFPB responded to our letter and did promise to observe the 
same kind of grace period that they did for the QM rule, and I 
would like unanimous consent to place in the record the 
response to Andy Barr and myself from the CFPB.
    Chairman Neugebauer. Without objection, it is so ordered.
    Mrs. Maloney. Now, the CFPB's letter was a little unclear 
on how long this grace period would last, and I hope that they 
will offer some further clarity. But given that the CFPB has 
already indicated a willingness to offer the industry some sort 
of grace period when the new integrated disclosure forms take 
effect on August 1st, do you think it is necessary to pass 
legislation codifying a safe harbor?
    Uh-oh. My time is up.
    Chairman Neugebauer. I'm sorry. The gentlewoman's time has 
expired.
    Mrs. Maloney. Maybe you can get back to us in writing. In 
any event, it is great to see you again.
    Chairman Neugebauer. The gentleman, my neighbor to the 
north in Oklahoma, Mr. Lucas, is recognized for 5 minutes.
    Mr. Lucas. Thank you, Mr. Chairman. And I truly do 
appreciate you holding this hearing on important regulatory 
relief measures before the committee. Like many at this dais, I 
represent an area that relies heavily on community financial 
institutions that are basically the lifeblood of our economic 
success in the State and in the district. And I have been very 
focused on how we provide relief from the unfair and 
unnecessary regulatory burdens plaguing those small financial 
institutions, and I believe that this set of bills will work to 
help accomplish that, and I am very congratulatory to all of 
the authors.
    With that, Ms. Peirce, let's discuss for a moment, in your 
testimony you note that, I believe in regards to H.R. 1941, 
``Regardless of their frequency, examinations are not 
worthwhile unless they are timely, thorough, rooted in 
carefully employed judgment rather than inflexible checklists, 
and consistent across institutions.''
    Could you discuss some of the problems with the current 
state of the financial institution examination environment, 
specifically regarding consistency in the quality of the exams 
and the examiners?
    Ms. Peirce. Yes. A concern I have is that because there are 
so few appeals that are ever taken on exam findings, and 
because usually the exam findings are upheld and they are done 
intra-agency, I don't think there is the consistency across 
financial regulators. And I think the financial institutions 
are in a pretty difficult position if they want to challenge a 
finding, because they know that they have this ongoing 
relationship with their examiner, and so we are not getting the 
sunlight on the process and we are not getting the opportunity 
to really see and test whether these exam findings are 
accurate.
    And, again, I think most of the examiners are well-
intentioned, they are trying to do a good job, but sometimes 
you do a better job when your work is checked from the outside.
    Mr. Lucas. Years ago, I can think of one of my loan 
officers, and, yes, I come from a long line of debtors, who 
observed that examiners tend to follow the rule of focusing on 
whatever the past was, not what the future challenges might be, 
and that makes it rather difficult to be flexible enough to 
address these kind of matters.
    The focus of these bills is to provide relief to allow our 
community bankers to do their work. And many of us, like 
myself, believe that there is sufficient flexibility in the 
various statutes if the regulators would implement it.
    As we work to try and make sure that relief is available 
where it should be targeted, could you touch for a moment on 
one of the issues that I have been trying in my own mind to 
work through? Let's talk about how you would define a community 
bank--size, activity, a combination of either? Let's visit for 
a moment in a hypothetical sense.
    Ms. Peirce. The Mercatus Center did a survey, and we 
struggled with the issue of how to define a community bank, and 
we ultimately used a $10 billion cutoff. A more accurate way to 
define a community bank is to look at the activities, but 
trying to do a survey measuring what the activities are was too 
difficult. So I think you have to look to see is it a community 
lending institution, is it taking deposits and making loans in 
the local community, and that is what I would ultimately define 
as a community bank.
    Mr. Lucas. And based on our recent history of the 
challenges from 2008 forward, those institutions making loans 
in their community, in businesses of their experience and 
expertise, typically were not the real threat to the national 
economy. Is that a fair assessment, Ms. Peirce?
    Ms. Peirce. That is a fair assessment, as long as 
regulators don't force them to do the kinds of loans that they 
are not used to doing. So we have to be very careful that the 
regulatory structure doesn't force these lenders into new areas 
with which they are not familiar.
    Mr. Lucas. A couple of months ago, I asked a young 
compliance officer at a community bank what the biggest 
challenge she faced was, and her response was being judged in 
the future by actions in the past based on standards that do 
not exist yet. I thought that was very telling. It is a 
legitimate point, wouldn't you say, Ms. Peirce?
    Ms. Peirce. It is. And I worry that bankers are getting out 
of the business because of that very reason.
    Mr. Lucas. Mr. Chairman, we have an obligation to try and 
make sure that process does not continue, otherwise the 
economic difficulties that it will bring to your communities 
and mine will do damage for a generation.
    With that, I yield back, Mr. Chairman.
    Chairman Neugebauer. I thank the gentleman.
    And now the gentleman from Washington, Mr. Heck, is 
recognized for 5 minutes.
    Mr. Heck. Thank you, Mr. Chairman. I want to add my voice 
of gratitude for your holding this hearing today. I think it is 
important. In fact, I think it is important that we never stop 
asking ourselves the question of, have we struck the right 
balance with regulation and consumer protection and matters of 
safety and soundness?
    I am not one who believes that we should never touch a hair 
on the head of Dodd-Frank by any means. Indeed, I am pretty 
concerned that there are trends, especially among community 
banks, where we are losing some relationship-based banking and 
where, frankly, they are being channeled into certain lines of 
business that narrow them such that there is--death spiral 
would be too strong a term--but render them less able to serve 
as many people as they might like.
    Having said all that, I find one aspect of today's hearing 
troubling, and it is, frankly, I think we are thinking too 
small bore here. We keep taking little, tiny shots at this 
thing, and, frankly, I am just wanting to register maybe it is 
time we took a big step back, maybe it is time we looked at 
something like Mr. Hoenig's approach or, frankly, a brand new 
charter for certain institutions.
    I think a blue sky exercise is exactly what I would have 
taken my company through, especially if we wrapped our chain 
around our axle as often as we have with these tiny rifle 
shots, which, frankly, don't end up becoming law.
    So I just wanted to register that as a suggestion. Maybe it 
is time to think bigger than we are.
    Congressman Miller, I am honored that you are here today, 
sir. Thank you. I understand your concerns about the FIRREA 
section of H.R. 766 and, frankly, I share many of them. But--
there's always a but--I think Congressman Luetkemeyer deserves 
a lot of credit for the first section of the bill, which 
requires examiners and banks to look at individual companies, 
not just the industry they are from, in addressing any concern 
or risk of a given account.
    And I want to relate this to my own State and that of 
Colorado and Oregon, who, as everyone knows, have recently 
enacted adult recreational use of marijuana. And I am very glad 
to see the FDIC has moved to implement that kind of a business-
based approach. Would you, sir, notwithstanding your concerns 
about FIRREA, at least acknowledge that a business-by-business 
approach is probably more commonsensical?
    Mr. Miller. Of course I think that no Federal regulator 
should single out any business or any industry because they 
don't approve, they don't like that business or industry. Now, 
I know that has been the debate about Choke Point. Choke Point, 
the critics say, you are singling out businesses you don't like 
or industries you don't like, and the Department of Justice 
says, we are not, the FDIC says, we are not, and the critics 
say, yes, you are, and then they say, no, we are not, yes we 
are, no, we are not. I don't really want to be involved in that 
debate. I don't think I have anything to add to that debate.
    Mr. Heck. Then give me my last 1 minute and 37 seconds, 
please.
    Mr. Miller. All right.
    Mr. Heck. But I do thank you.
    Mr. Sharp?
    Mr. Sharp. Yes, sir.
    Mr. Heck. I don't have enough time left to ask the two 
questions I want, but I do want everybody in this room to know 
that this gentleman comes from a very distinguished lineage. I 
ran into Jess at the spectacular celebration down at the 
Smithsonian of fighter aces. I was very privileged to be the 
wingman to Congressman Johnson in passing the Congressional 
Gold Medal for fighter aces. We haven't created a fighter ace 
in about 40-some years in this country. There are approximately 
100 of them left. Mr. Sharp's grandfather flew--P-51s, Jess?
    Mr. Sharp. P-51s, yes, sir.
    Mr. Heck. Over Europe. And, again, there just aren't very 
many of those heroes left. And he and his grandfather were 
there. And we honor your family's service.
    You have a lot to live up to.
    Mr. Sharp. Yes, I do.
    Mr. Heck. Okay. I have a few seconds.
    I have been working with Mr. Posey on a bill to set up a 
no-action letter, and with your office as well, and very 
constructively, and I thank you for that. I guess, in 23 
seconds, what do you see as the most salient benefits of a 
working no-action letter process? That bill is not before us 
today, but I still hope we can find the right partisan balance 
and philosophical balance to be able to move us in this 
direction. Even Mr. Cordray acknowledged that what they came 
forth with was too narrow.
    You started tapping, Mr. Chairman, before it reached zero. 
I yield back the balance of my time.
    Chairman Neugebauer. I thank the gentleman. And I have a 
big idea. Let's make the CFPB bigger and make a five-person 
commission.
    I now go to the gentleman from North Carolina, Mr. 
Pittenger, for 5 minutes.
    Mr. Pittenger. Thank you, Mr. Chairman.
    I have served on a bank board for a dozen years, for a 
community bank in Charlotte, and I have really been taken aback 
today by the statements that I have heard, really the 
enthusiastic, zealous support for the CFPB and Dodd-Frank. I 
have visited countless numbers of our community banks in my 
district. I spoke 2 weeks ago at the annual convention of the 
North Carolina bankers. And time and again, I hear the same 
stories of the compliance requirements, of the restrictions, 
that they are not hiring the loan officers, they are having to 
hire compliance officers, that they are restricted in who they 
can loan money to. Character is no longer a box to check. It 
doesn't matter how well you know that person, you have to check 
all the right boxes.
    I think what is lost in context, to me, is where we are in 
our economy, we are at 2.2 percent economic growth; where we 
are in access to capital in the market. Most major developers 
are having to go to private equity, because capital is not 
available in the commercial banking, and it is much more costly 
and much more costly to consumers.
    So what is done, with good intentions, I think has been 
very misguided, particularly as it relates to community banks, 
who have provided nearly half of the small business loans in 
this country. And to me, it is that entrepreneur that is the 
lifeblood of our economy, that is the building block, and that 
beginning entrepreneur can't get access to capital because his 
character doesn't mean a hoot to that banker he has known for 
25 years.
    So I am really amazed that there is not a consideration for 
reality, that there is maybe no context of conversations with 
reality.
    And I would like to see a reaction maybe from Mr. Ireland, 
and maybe you, Mr. Miller, if you want to say something else. 
As I hear my friends out there struggling, there are no new 
banks, community banks being chartered, and they are 
consolidating today.
    Mr. Ireland. Increased regulatory burden favors larger 
banks who can spread the cost of the new regulatory 
requirements over a larger base. There are some exceptions, 
capital rules work a little bit differently, but most 
regulatory requirements work that way.
    I don't know how a small bank can comply with the new 
mortgage rules. Look at those 1,800 pages. You want the small 
banker to be out evaluating credit for loans in their community 
rather than reading an 1,800-page rule. That is what you want 
them to do. And as we react, and in some cases overreact, with 
regulatory requirements, it makes it harder to be a small bank, 
it makes the break-even point, the size of a bank go up, and I 
think you have a real problem, the bankers start to lose touch 
with their communities. And the character loans that you 
referred to, which would have started, historically, many of 
the great businesses in the United States, don't get made 
anymore.
    Mr. Pittenger. Including my own.
    Mr. Miller, have you had any occasion to talk to any bank 
presidents, small bank presidents, the community banks, 
midsized banks, in the last year or two?
    Mr. Miller. Last year or two--my brother spent his career 
in banking, and a large part of that is at a community bank. My 
father went to NC State, my brother was a banker. I have now 
aired all my family's dirty linens.
    Mr. Pittenger. No, let's be really specific. I don't have 
much time. How many banks have you visited in the last year?
    Mr. Miller. As a customer would be the only reason I would 
visit.
    Mr. Pittenger. Okay. So you really haven't had any--
    Mr. Miller. When I was a member of this committee, I 
frequently visited banks and credit unions.
    Mr. Pittenger. I know. A law was passed. Don't you think it 
makes sense to go back and say, now, I wonder what the impacts 
have been of that law?
    Mr. Miller. Sure.
    Mr. Pittenger. Let me encourage you to do that.
    Mr. Miller. I think it makes perfect sense to see what is 
working, and what is not.
    Mr. Pittenger. Mr. Sharp, what has been your observation in 
terms of the credit markets, availability of capital in the 
business community?
    Mr. Sharp. It absolutely is constricted. And you touched on 
a point that, if you don't mind, I want to expand on for just a 
quick second.
    Mr. Pittenger. Quickly. Ten seconds.
    Mr. Sharp. And that is that a lot of small businesses in 
the marketplace act as consumers. They use their credit cards, 
they borrow against their home. And to the extent we are 
limiting access to credit for consumers, there is also a knock-
on effect for small businesses. That is very important.
    Mr. Pittenger. Thank you. I yield back.
    Chairman Neugebauer. I thank the gentleman.
    We have a vote started, but there is not a big rush to the 
Floor right now; 23 people have voted. We are going to try to 
get a couple more in, and we are going to go to the gentleman 
from California, Mr. Sherman, for 5 minutes.
    Mr. Sherman. Mr. Miller, welcome back. Meetings of the Brad 
caucus have not been interesting since your departure.
    We are going to focus on two bills. Mr. Pearce and I have 
the bill to provide a temporary safe harbor from the integrated 
disclosure requirements, and of course there is the NCUA Budget 
Transparency Act that I would like to focus on first. A simple 
bill, it says the budget will be transparent, people have a 
right to comment on it. Can anybody think of a reason that is a 
bad idea?
    Mr. Sharp. Not here.
    Mr. Sherman. What?
    Mr. Sharp. I said, not here.
    Mr. Sherman. Not here.
    Any response?
    Mr. Ireland. I operated in the Federal Reserve for years, 
and my rule of thumb was I never wanted to be a part of 
anything that I wasn't prepared to discuss before this 
committee on C-SPAN. So I don't see why discussing it in a 
hearing to the public should be a problem.
    Mr. Sherman. Gotcha.
    Let's move on to the bill on the TRID form. A cruise ship 
is a very complicated piece of machinery, and if I buy a cruise 
ship I want it delivered on time, I want it to depart on time, 
I don't want any delays, but I expect the first use of the 
cruise ship to be a shakedown cruise, because a cruise ship is 
complicated and one expects that there will be some 
difficulties. That is why I would not invite 3,000 trial 
lawyers to come onto my ship on its shakedown cruise and invite 
them to bring lawsuits should there be any failure to meet the 
standards of luxury that we would aspire to.
    It occurs to me that a 1,888-page regulation might be as 
complicated as a cruise ship and that perhaps we ought to take 
it on a shakedown cruise, not delay it, but say that if people 
comply in good faith, do their best job to comply, that they 
shouldn't face the lawsuits or the harsh regulatory action.
    There has been a letter issued that has a sentence that 
doesn't help me sleep at night. We have a bill that would, but 
I am concerned on the lawsuit side.
    Mr. Sharp, can you imagine a mortgage lender or escrow or 
title company screwing up and getting a lawsuit because things 
didn't go smoothly in August and September?
    Mr. Sharp. Yes, absolutely, I can certainly imagine that. 
And, Congressman, I feel like a 5-month accommodation is a 
pretty reasonable thing to ask for given the complexity that 
you have just described.
    Mr. Sherman. It is only 1,888 pages.
    And I will ask any witness here, are there folks in the 
industry who are backing away from opening files or opening as 
many files as they might otherwise do so in August and 
September because they are concerned about whether they will be 
in full compliance with these rules? Ms. Peirce?
    Ms. Peirce. I have read that is what people are predicting 
will happen, that there will be a period where it will be 
harder for consumers to get loans.
    Mr. Sherman. What I have heard is that the biggest 
organizations might still be in the market, but some of the 
smaller organizations will back away. That is not good for 
consumers.
    Can anybody think of a disadvantage to a 5-month period in 
which those who try to comply in good faith are held harmless 
for mistakes?
    Mr. Miller, I know you had--
    Mr. Miller. Not as you phrased it.
    Mr. Sherman. Good. So we have two bills, I like the two 
bills, and all four witnesses like the two bills. The motion 
carries. And I yield back.
    Mr. Miller. As you phrased it. If there is a good faith 
effort by a lending institution to comply with the new regs, 
which have been a long time in the works. Elizabeth Warren 
testified before this committee I think probably in 2011, maybe 
even the fall of 2010 when she was a newly acting director, and 
that was the first thing she was working on, was trying to 
develop a unified RESPA-TILA compliance.
    Chairman Neugebauer. I thank the gentleman.
    Mr. Sherman. If I can just comment. Just because Elizabeth 
Warren is here testifying about a proposal doesn't mean a small 
or medium-sized bank was working on figuring out how to comply 
with the as-of-yet-not-written bill in 2011. They are just 
starting to focus now.
    I yield back.
    Chairman Neugebauer. I thank the gentleman.
    The gentleman from New Hampshire, Mr. Guinta, is recognized 
for 5 minutes. After Mr. Guinta's testimony, we will recess.
    Mr. Guinta. Thank you, Mr. Chairman.
    Mr. Chairman, I ask for unanimous consent to submit 
testimony from the National Auto Dealers Association and 
letters of support into the record.
    Chairman Neugebauer. Without objection, it is so ordered.
    Mr. Guinta. Thank you, Mr. Chairman.
    It has been over 2 years now since the CFPB issued their 
flawed auto lending guidance, a guidance that was issued 
without allowing a public comment period, which I find a bit 
unusual. And despite 12 bipartisan letters sent to the CFPB by 
Congress, they have yet to address what I would consider the 
faulty and unclear guidance issued back in March of 2013.
    However, I also find it a bit interesting and coincidental 
to see that the CFPB finalized their rule to oversee nonbank 
auto finance companies just yesterday, on the eve of today's 
hearing.
    What we see here is the CFPB's attempt to go outside the 
formal rulemaking process and change the market without doing 
their research. On November 4, 2013, Director Cordray sent a 
letter in response to Senator Shaheen from my State of New 
Hampshire and Senator Portman that admitted they did not take 
into account the impact their guidance would have on consumers.
    Ironically, they are the agency that is supposed to protect 
consumers, but the guidance would in fact, in my view, harm 
them, and it doesn't stop with consumers. The guidance impacts 
not just auto dealers, RV dealers, motorcycle dealers, 
international dealers, and even our manufacturers.
    My good friend and I, Mr. Perlmutter and I, have introduced 
H.R. 1737, a bill that is so simple and so narrow, that 
provides just clarity, fairness, and due process. The bill 
simply asks the CFPB to rescind their flawed guidance and 
reissue it under a more transparent process by consulting other 
regulators and allowing public comment.
    So I have a couple of very quick questions. Mr. Sharp, I 
would like to first address my question to you. Do you think it 
would be beneficial and helpful to allow the public to comment 
on guidance that would impact a longstanding auto loan practice 
that has been proven to benefit consumers?
    Mr. Sharp. Yes, absolutely. We strongly support the 
legislation and think that this is an area where the CFPB just 
got it wrong and it needs to start over. And a big part of 
getting it right is understanding the market, and they are not 
going to get that without asking the public and stakeholders 
what the effects would be.
    Mr. Guinta. Thank you. I appreciate it.
    Mr. Ireland, can you tell me what your thoughts are on why 
H.R. 1737 is necessary?
    Mr. Ireland. I think it is necessary because the Bureau 
does not take advantage of the opportunity for public comment. 
Regardless of whether or not it is required, it is a fantastic 
research tool and it lets you find out what the issues are and 
what the problems are with what you are proposing. When I was 
at the Federal Reserve, I looked at public comment as an 
opportunity. I think the Bureau should view it the same way. 
And if they are not going to do that, maybe they have to be led 
there. And that is what this bill does, and I think that is 
appropriate.
    Mr. Guinta. Thank you very much.
    Ms. Peirce, do you agree that the public should have the 
ability to comment on the CFPB guidance?
    Ms. Peirce. Yes. I think generally, and Mr. Ireland alluded 
to this before, doing material guidance of any kind is always 
enhanced if you have a public process. And also, if they did it 
by rulemaking, they would have to consider the costs, and that 
is really important. Obviously, as you mentioned, it is 
important for them to consider what the effect on consumers 
would be.
    Mr. Guinta. Mr. Miller, would you concur?
    Mr. Miller. No, not so much.
    Mr. Guinta. You don't think that the public should have 
the--
    Mr. Miller. I think it should be consultative. I do not 
think it should necessarily require the full notice of comment 
of the Administrative Procedures Act, which is almost as 
tortured as trying to pass a bill through Congress. It is not 
all unusual for agencies to proceed on a case-by-case basis, 
recognizing they can't anticipate every circumstance. And it is 
usually the regulated industry that asks for guidance, kind of 
tell us how you are thinking about this.
    And the guidance that CFPB issued seems to make a lot of 
sense to me. You are now buying loans, and you have a portfolio 
in which White borrowers in the same circumstances, with the 
same credit score, with the same loan-to-value, have 
significantly lower interest rates, and you have liability for 
that. And if you want to avoid liability, you might want to 
think about the way you are going about buying those loans.
    Mr. Guinta. Reclaiming my time, I think that I would 
respectfully disagree. I think the public should have the 
ability to issue public comment, considering they are now being 
viewed by the CFPB in a very, very different way.
    Chairman Neugebauer. The time of the gentleman has expired.
    I am now going to squeeze in Mr. Williams from Texas. You 
are recognized for 5 minutes.
    Mr. Williams. Thank you, Mr. Chairman.
    Before I begin discussion of my bill, the State Licensing 
Efficiency Act of 2015, I would be remiss if I didn't comment 
on Mr. Guinta's indirect auto financing bill. As all of my 
colleagues know, this is an issue that is very personal to me. 
As a small business owner, and, Mr. Miller, a car dealer for 44 
years, I have never seen such an overreach by a Federal agency 
as we are seeing today with the CFPB and indirect auto lenders. 
After issuing guidance in 2013 with zero input from Congress 
and zero input from the industry, nothing the Bureau does 
surprises me anymore.
    As an original cosponsor of Mr. Guinta's bill, I strongly 
support his effort, and I hope this committee and this Congress 
send a strong message to Director Cordray that his actions have 
not gone unnoticed and that the consumer knows better than the 
Federal Government what a good deal is and what a bad deal is.
    With that being said, the State Licensing Efficiency Act, 
H.R. 2643, that I am sponsoring will expand the State's 
liability to use a federally accepted registry, the National 
Multi-State Licensing System, to expedite the existing 
background check process. I would like to ask unanimous consent 
to submit a support letter for the record from the Conference 
of State Bank Supervisors and their president and CEO, John 
Ryan.
    Chairman Neugebauer. Without objection, it is so ordered.
    Mr. Williams. The current NMLS has been used to oversee the 
mortgage industry since 2008, but the FBI has prevented State 
regulators, citing an absence in Federal law, from expanding to 
use its conduct background checks for other financial services, 
such as companies like MoneyGram, who support this legislation.
    My first question is for Mr. Ireland. You said in your 
testimony that using the NMLS for nonmortgage financial 
services could cut as much as 3 weeks out of the process for 
licensing these financial providers. The turnaround time for 
the background checks for other financial services providers, 
in fact, can take weeks, if not months.
    Please help me and this committee understand how and why 
there is such a wide discrepancy in processing background 
checks for mortgage loan originators and other financial 
services providers. Can you expand on how a quicker process 
would potentially improve consumer choice?
    Mr. Ireland. The mortgage loan process that is currently in 
place is fully automated. You can scan fingerprints, you can 
query the database, and you can get a response on the 
background check in, I understand, 2 hours.
    If you don't have access to that system, you are in a 
manual system. I am told by the Conference of State Bank 
Supervisors' representatives that it is about a 3-week process 
at a minimum, and it obviously can take longer than that, to go 
through that manual system. And that just seems to me to be 
needless bureaucracy. If you have a more efficient system, you 
ought to let the States use it, and you ought to let them use 
it for all their legitimate licensing purposes.
    Mr. Williams. I appreciate that, and I appreciate you all 
coming today.
    And I yield back my time, Mr. Chairman.
    Chairman Neugebauer. I thank the gentleman.
    The committee will now stand in recess, but resume after 
votes. I encourage Members to return as quickly as possible. 
This vote is--actually, it is about over. So I would ask our 
witnesses to be patient. We will be right back.
    [recess]
    Chairman Neugebauer. The committee will come to order. 
Thanks again for your patience to our panel.
    I now recognize the gentleman from Missouri, Mr. 
Luetkemeyer, the chairman of our Housing and Insurance 
Subcommittee, for 5 minutes.
    Mr. Luetkemeyer. Thank you, Mr. Chairman.
    And thank all of you for waiting.
    Let's start out with Mr. Ireland. You have been with the 
Federal Reserve in the past for quite some time, have been 
involved with bank examinations. Have you ever seen anything 
like Operation Choke Point before in all the years of your 
being around the banking industry, sir?
    Mr. Ireland. No, I never saw anything like that before, and 
if I had, I would have tried to stop it.
    Mr. Luetkemeyer. It is interesting. We had William Isaac, 
the former FDIC Chair here, he testified some time ago, about a 
year ago, as a matter of fact, and his comment was that he had 
never seen anything like this in his 45 years being in the 
banking business as a consultant or even as Chairman of the 
FDIC.
    One of the things that Mr. Miller brought up in his 
testimony a while ago was with regards to FIRREA. It seems as 
though in the testimony of my colleagues, they like all the 
bill except that part of it. And so my thought process is, and 
what I have heard from the banking industry, is that FIRREA 
originally was law to be able to allow banks to protect 
themselves against fraud, but what has happened is DOJ has 
flipped that and now it has expanded and reinterpreted the law 
to be able to use it against them for fraud. What I try do in 
my bill is narrow it back down to the original intention.
    So, Mr. Ireland, what do you think about that part of the 
bill?
    Mr. Ireland. I didn't have any problem with that. It seemed 
to me you made the language of what it covered a little clearer 
and you elevated the subpoena power in the Justice Department 
to more senior officials, but still allowed it to be exercised 
within the Justice Department.
    I lived through FIRREA, and we were trying to get the 
people who had been cheating thrifts with that provision, and I 
think what you have done is consistent with the original 
intent.
    Mr. Luetkemeyer. I think that is what we are tying to do, 
is continue to allow those agencies to do their job, but at the 
same time stop the nonsense, because, as our good friends on 
the Oversight and Government Reform Committee have found, in 
getting access to the emails and internal memos and offering a 
report on both agencies, DOJ and FDIC, in their own words, say 
that the collusion is going on and their intent is beyond that 
of money laundering. Their intent is to ``drive them out, drive 
the industry out of business,'' as well as these industries 
don't have the moral right to exist. I have told the FDIC 
Chairman, ``You are not in the business of being the moral 
police; you are supposed to be an enforcer of the existing 
laws.''
    Mr. Sharp, as a representative from the U.S. Chamber of 
Commerce, I know in January the FDIC put in some new protocols 
with regards to how they were using their enforcement ability 
with regards to banks, and said that they would stop doing 
Operation Choke Point activities. Have you seen that yet?
    Mr. Sharp. Thank you, Congressman. I would say that my 
phone hasn't stopped ringing about concerns about Operation 
Choke Point. So to whatever degree the FDIC or other government 
agencies have tried to give people comfort that there is 
nothing to see here, it is not giving companies the kind of 
comfort that we would all like them to have.
    Mr. Luetkemeyer. It is interesting, because the FDIC agreed 
that the protocols that I have in the bill, H.R. 766, were what 
they put in place and actually did a little bit more, to their 
credit. And so I am excited that they are willing to work with 
us, but I have yet to see the fruitions of those changes.
    And like you, I have an email address that they can email 
me, the industry, individuals who are being hurt by Operation 
Choke Point, can actually email us and tell their stories. And 
so we still get some stories. And, unfortunately, that is why 
we have to have the bill, to be able to stop this.
    And so it is interesting from the standpoint that these 
agencies, which are supposed to be enforcing the law, are 
making it up as they go and they are taking out their own ideas 
and ideology and moral value system on our citizens.
    Ms. Peirce, I know that you probably have some experience 
with this as well. I know you testified in support of the bill. 
Can you tell me a little bit about what your opinion of that is 
and what your experience has been?
    Ms. Peirce. Yes. And I should clarify that I can't either 
support or recommend against supporting a bill, but I will say 
that Operation Choke Point and similar programs to try to have 
regulators either indirectly or directly tell banks the 
businesses they can deal with are really damaging and really 
impair the ability of a bank to serve its clientele. And I 
think that is really harmful to--essentially the government is 
controlling access to capital.
    Mr. Luetkemeyer. As a former regulator myself in one of my 
past careers, it is certainly disheartening to see this happen, 
from the standpoint that this is not the way we ever did it 
when I was there, and to see this punitive way of going about 
their enforcing the law is certainly disconcerting.
    With that, I yield back the balance of my time. Thank you, 
Mr. Chairman.
    Chairman Neugebauer. I thank the gentleman.
    Now the gentleman from Colorado, Mr. Tipton, is recognized 
for 5 minutes.
    Mr. Tipton. Thank you, Mr. Chairman. And I would like to 
ask unanimous consent to enter into the record a letter from 
the Independent Community Bankers of America supporting H.R. 
1553.
    Chairman Neugebauer. Without objection, it is so ordered.
    Mr. Tipton. Thank you, Mr. Chairman. I would like to thank 
you and the ranking member for holding this hearing today, and 
to thank our panelists for taking the time to be here as well.
    H.R. 1553, the Small Bank Exam Cycle Reform Act, a piece of 
legislation I introduced with Ranking Member Clay, is a 
targeted relief effort for community banks. These small banks, 
which did not cause the financial crisis, are unfortunately 
suffering from the regulatory blowback.
    The legislation moves the asset threshold from $500 million 
to $1 billion for well-run institutions to qualify for an 18-
month exam cycle. This proposal is based on an OCC 
recommendation and will help alleviate the burdens on community 
banks, as well as bank examiners, also permitting community 
banks to be able to focus their time and resources on the 
surrounding community rather than on the exam process.
    Mr. Ireland, I appreciate your taking time to be able to be 
here today. One of the most pressing concerns that we hear from 
our constituent banks in my district is the cost of compliance, 
keeping in mind that these are small community banks that are 
locally owned and operated. Mr. Ireland, can you speak to on-
site examination processes and what are some of the 
requirements in terms of preparation for an exam and resources 
that are used for an exam?
    Mr. Ireland. Typically, what will happen is that the 
examiners will tell the institution that they are coming in. 
They ask them to get together materials to respond to what they 
intend to examine, what they intend to focus on. And then they 
come on-site, and they are going to look at the bank's 
documentation, the bank's processes, the bank's procedures. 
Depending on how they view those, it may be more intensive or 
somewhat less intensive.
    It is a time-consuming, costly process for the institution. 
I would point out, it is a time-consuming, costly process for 
the agencies as well. And what your bill does is requires them 
to more risk focus their examination process on the larger 
organizations and complex organizations where there are real 
problems. It is in agencies' interest just as well as it is in 
the interest of the smaller banks.
    Mr. Tipton. So it would be just common sense to be able to 
extend that for well-run banks?
    Mr. Ireland. I think it is.
    Mr. Tipton. Great. I appreciate your comments on that.
    And I would like to be able to maybe perhaps now move to 
Mr. Sharp. You had cited in your testimony that the CFPB must 
respect the limits of its authority. And is it your sense that 
we are seeing the CFPB reach beyond what was original 
legislative intent?
    Mr. Sharp. Thank you for that question, Congressman. Yes, 
we are seeing that, not everywhere, but we are certainly seeing 
it in a number of places. In fact, I would submit that some of 
what we are seeing, again in the indirect auto lending market, 
is a result of the Bureau trying to reach beyond a limitation 
that Congress put in front of it to regulate vehicle sales. 
They have used the lenders that they do regulate to sort of get 
to the auto dealers, who are exempted under the law, and we 
have an issue with that. And there are several other examples 
that I am happy to submit for the record if it would be 
helpful.
    Mr. Tipton. Great. And we would appreciate that.
    And I think that brings us to Mr. Miller, who had served 
here in Congress. We have one man making a decision 
unilaterally, U.S. Chamber of Commerce, others are noting, 
going beyond legislative intent. As a former legislator who had 
sat in this committee, following your logic, can you speak as a 
former member of the committee on how that would benefit us 
here?
    Mr. Miller. First, I would disagree with Mr. Sharp about 
the auto loan guidance.
    Mr. Tipton. We can go on that, but I am just talking about 
the policy of having power relegated to one person. How would 
that benefit the citizens?
    Mr. Miller. There are agencies who do it both ways. There 
are agencies that have a commission.
    Mr. Tipton. They do, but we are dealing with the CFPB that 
has one.
    Mr. Miller. And then there are agencies that have one. And 
there are some advantages in having a commission, as Ms. Peirce 
pointed out. And I agree with what Mr. Neugebauer said, it 
provides some more complex--
    Mr. Tipton. Do you think legislative intent, as a former 
legislator, Mr. Miller--
    Mr. Miller. Oh, I know very well the legislative intent. I 
entered into the first bill.
    Mr. Tipton. Should it be respected, sir?
    Mr. Miller. What is that?
    Mr. Tipton. Should it be respected?
    Mr. Miller. The bill as introduced is not the bill as 
passed. So the legislative intent is usually what Congress did, 
not what somebody earlier said.
    Mr. Tipton. So you don't believe or you do believe that 
legislative intent should be respected?
    Mr. Miller. What?
    Mr. Tipton. You do or don't believe legislative intent 
should be respected?
    Mr. Miller. Yes, but it--
    Mr. Tipton. Okay. I appreciate that.
    Now, if we were to empower Mr. Neugebauer with all of the 
power in this committee to be able to make the determinations 
on which bills are going to be moving forward, what is going to 
be heard, would you be comfortable with that?
    Mr. Miller. Actually, that was pretty much my experience. I 
didn't always like it.
    Legislative intent is not what one or two Members thought. 
It is not how a bill is introduced. It is what Congress did. It 
is what the bill passed. So the fact that the bill was 
originally introduced with a commission does not mean it was 
the legislative intent to have a commission, when Congress in 
fact passed a bill with a director.
    Chairman Neugebauer. The time of the gentleman has expired.
    I now go to the gentleman from Pennsylvania, Mr. Rothfus, 
for 5 minutes.
    Mr. Rothfus. Thank you, Mr. Chairman.
    And thanks to our panel this afternoon. It is getting late 
here.
    Before I turn to my questions for the panel, I would like 
to first take a moment to commend Mr. Westmoreland on his 
Financial Institutions Examination Fairness and Reform Act, of 
which I am a cosponsor, and to offer this letter that was sent 
by a community bank in my district. The letter expresses strong 
support for the proposed legislation and includes examples to 
illustrate why changes to the examination appeals process are 
desperately needed. The letter also stresses the vital need for 
independence in the appeals process, and it offers what I 
believe are good ideas about how we can go about ensuring that.
    Mr. Chairman, I would ask unanimous consent to enter this 
letter into the record.
    Chairman Neugebauer. Without objection, it is so ordered.
    Mr. Rothfus. I would also like unanimous consent to enter 
letters of support for H.R. 1660, the Federal Savings 
Association Charter Flexibility Act, from the American Bankers 
Association, the Independent Community Bankers of America, and 
the Pennsylvania Association of Community Bankers.
    Chairman Neugebauer. Without objection, it is so ordered.
    Mr. Rothfus. Thank you, Mr. Chairman.
    Mr. Ireland, I would like to direct your attention for the 
next few minutes to H.R. 1660, the Federal Savings Association 
Charter Flexibility Act, which I have introduced. As you may 
recall, this legislation permits a Federal savings association 
to elect to operate, subject to supervision by the Office of 
the Comptroller of the Currency, with the same rights and 
duties of a national bank.
    On a basic level, could you please describe how Federal 
savings associations differ from other types of financial 
institutions and what sort of constraints they face as a result 
of their structure?
    Mr. Ireland. Many of the savings associations are a mutual 
form of structure. They are not the for-profit corporate form 
of structure that a national bank has. And coming from a 
different charter and a somewhat different regulatory 
structure, their powers are different than a national bank. In 
some respects, they are more limited in the lending that they 
can do and they have a qualified thrift lender test, for 
example.
    Mr. Rothfus. I have heard from many Federal savings 
associations in western Pennsylvania and around the country 
that they would like the option of offering a broader range of 
services so they can better serve the needs of their local 
communities. Why wouldn't these institutions just convert their 
charter?
    Mr. Ireland. It costs money. You have to redo your 
corporate structure and you are going to have to go through an 
application process to become a national bank. It is going to 
take time and money. And what your bill does is it allows them 
to do that in a streamlined, seamless way without that cost and 
time.
    Mr. Rothfus. Would H.R. 1660 effectively address those 
costs and burdens--
    Mr. Ireland. Yes.
    Mr. Rothfus. --particularly for smaller institutions?
    Mr. Ireland. Yes.
    Mr. Rothfus. In your testimony, you state that it is 
important to appropriately balance caution and restraint with 
the ability to innovate and to provide financial services to 
consumers and businesses. Do you believe that H.R. 1660 
achieves that appropriate balance of a Federal savings 
association?
    Mr. Ireland. Yes, I can't see any reason why you wouldn't 
do H.R. 1660. I just don't see another side to it. It is a 
streamlining of the regulatory system. You get benefits out of 
it. I don't see any costs.
    Mr. Rothfus. Ms. Peirce, you state in your testimony that 
H.R. 1660 is consistent with regulatory streamlining efforts 
that are being undertaken by the Office of the Comptroller of 
the Currency and the Economic Growth and Regulatory Paperwork 
Reduction Act (EGRPRA) process. Can you explain this in more 
detail?
    Ms. Peirce. Sure. The EGRPRA process is intended every 10 
years to take a look at regulatory burdens on banks and to see 
if there are any ways that those can be lightened that are 
consistent with safety and soundness. And this is an area where 
the OCC has focused some attention, and it seems like this is 
an area where you could eliminate a regulatory burden, a 
regulatory cost without causing any safety and soundness 
issues.
    Mr. Rothfus. So would H.R. 1660 achieve those results?
    Ms. Peirce. Yes. That seems to be the purpose of the bill, 
is to eliminate regulatory cost.
    Mr. Rothfus. You mentioned in your testimony that financial 
regulation needs periodic updating to reflect changing 
conditions on the ground for both regulators and regulated 
entities. Do you believe that H.R. 1660 fits within that 
category?
    Ms. Peirce. Yes. I think it is an effort that is designed 
to look at the existing structure and say: Hey, does this make 
sense, can we make a change to it?
    Mr. Rothfus. Here is a question, if each of the members of 
the panel could respond. The title for this hearing is, 
``Examining Legislative Proposals to Preserve Consumer Choice 
and Financial Independence.'' Do you believe that H.R. 1660 
fits that description, advances that goal?
    Mr. Sharp?
    Mr. Sharp. Yes.
    Mr. Rothfus. Ms. Peirce?
    Ms. Peirce. Yes.
    Mr. Rothfus. Mr. Ireland?
    Mr. Ireland. Yes.
    Mr. Rothfus. Congressman Miller?
    Mr. Miller. I am simply not that familiar with your 
legislation. I'm sorry.
    Mr. Rothfus. I would invite you take a look at it.
    Thank you. And I yield back.
    Chairman Neugebauer. I thank the gentleman.
    And now one of our newest members of the full committee and 
the subcommittee, Mr. Emmer from Minnesota, is recognized for 5 
minutes.
    Mr. Emmer. Thank you, Mr. Chairman.
    And thank you to the panel. Thanks for coming back. I love 
this place. You sit down, you get into something, a bell goes 
off, and you jump up and run somewhere else.
    Very quickly, there are so many places that you can go, but 
in 5 minutes, I just have a few questions. First, Mr. Sharp, 
for you, representing the business community, if you will, 
would you agree with me that in order for businesses to not 
just survive, but to thrive and create new opportunities, there 
is a certain amount of certainty, stability, predictability 
that is required in the marketplace?
    Mr. Sharp. Yes. Absolutely.
    Mr. Emmer. And it helps businesses to plan for the future. 
Would you agree with that?
    Mr. Sharp. Yep. Absolutely. Again, one of our sort of 
central tenets is companies need clear rules of the road.
    Mr. Emmer. And, Ms. Peirce, you have talked a little bit 
about regulation. Not all regulation and government oversight 
is bad. There is a place for it. But when you have a moving 
target, when the rules of the road, as Mr. Sharp was just 
talking about, are constantly on the move, that is not a good 
thing. Wouldn't you agree?
    Ms. Peirce. Yes. It is a very difficult environment within 
which to do business, and often old rules just get left in the 
place and new rules get piled on and there is constant change.
    Mr. Emmer. And, Mr. Ireland, for you, what is important is 
not just the predictability, but competition in the marketplace 
is a good thing. And I know that the regulations that a lot of 
these pieces or these proposals are addressing, the regulations 
that they are trying to remedy or address were intended to 
protect the consumer, the customer, but, in fact, if you 
suffocate the ability for the marketplace to work, if you by 
overregulation in creating these unintended consequences 
eliminate competition--for instance, community banks, we have 
closed 1,500 community banks in this country since Dodd-Frank 
was enacted and we are consolidating countless numbers every 
month.
    That consequence related to this regulation, would you 
agree that erodes the quality that the consumer would like to 
get in the marketplace?
    Mr. Ireland. It reduces access to financial services for 
consumers and small businesses and, in some cases, larger 
businesses. Personally, I think that the state of our economy 
and our recovery is in part a reaction to the way the financial 
services industry is being regulated.
    Mr. Emmer. Right. Thank you.
    Where I want to end, because this is the one area that I am 
going to touch on in my last 2 minutes, I have major concerns 
with the all-powerful, unaccountable, one-person, top-down 
CFPB, this thing called the CFPB. And I can't believe that 
anyone with a straight face would say that absolute power is 
good, which is why I support the chairman's bill for a board, 
as opposed to one person.
    But of the many examples or problems that I or my 
constituents would point out when it comes to this CFPB, not 
the least of which is the lack of accountability and oversight 
by Congress, one of the big ones I have has to do with auto 
loans. And I have a quick story in the last minute.
    I have an auto dealer in St. Cloud, Minnesota, in my 
district, who wrote to me and said: I had a referral customer 
come into my dealership. She didn't really know what to expect, 
because she had bad credit due to student loan issues. She told 
the dealer right away that she had bad credit from student 
loans, but she was making partial payments. After reviewing her 
credit application, the dealer submitted it to five banks. Two 
turn-downs was the result, one conditional approval, and two 
approvals. One of the approvals came in at a rate of 13.99 
percent and the other came in at a Tier 2, which has a 
subvented rate of 2.9 percent.
    After showing this young lady the car and the payment with 
the interest rate that they were able to get approval for, they 
had a customer on their show floor who was in tears of joy, and 
in his words, `` We had a customer for life.''
    What he is concerned about is this rulemaking authority and 
maybe requiring to eliminate competition in the marketplace, 
the result of a one-size-fits-all rule. I have major concerns 
about that too. That is why I am a cosponsor of the Guinta 
bill.
    But one of the three that I just asked--and no offense to 
Mr. Miller, but I think I know where he is at on this--I would 
like to--I guess I ran out of time.
    Chairman Neugebauer. I thank the gentleman.
    Mr. Emmer. Maybe I could follow up with you after.
    Thank you, Mr. Chairman.
    Chairman Neugebauer. Without objection, I am pleased to 
recognize the gentleman from Maine, Mr. Poliquin, who is not a 
member of the subcommittee, but is a member of the full 
Financial Services Committee, for 5 minutes.
    Mr. Poliquin. Thank you, Mr. Chairman, very much. I 
appreciate the opportunity to sit on this panel this afternoon, 
and I salute you and everybody else on the committee and those 
testifying before us today to address about a dozen very 
important bills, all of which are designed to help not only our 
hard-working families up in Maine's Second District, which is 
the west-central, northern, and down east part of our great 
State, but all across America.
    I must speak up, Mr. Miller, and this is directed to you, 
sir. I was a little bit surprised, sir, when we were talking 
about, as Mr. Emmer did and other folks here, about the CFPB. 
This is an organization, a regulator that has tentacles 
throughout our economy into all of our families' homes, all of 
our small businesses, and here is a fellow who runs this 
organization, who is appointed by the President, has a 5-year 
term, reports to nobody, and there is no appropriation process, 
so Congress has very little, if any, oversight. The money to 
run the CFPB comes from the from the Federal Reserve, so there 
is no oversight.
    So when you, sir, with all due respect, state that you 
think that is a great structure, well, when I was State 
treasurer in Maine--I am not done, sir--when I was State 
treasurer in Maine, we had a problem with other agencies like 
this, and we made sure they were accountable to the State 
legislature, accountable to other folks, and it corrected a lot 
of problems that we had.
    So I am a little bit disappointed with you, but I do 
understand that you have the right to your opinion. I just 
disagree with it.
    Now, moving on, if I may, Mr. Chairman, I am very pleased 
to support and cosponsor Congressman Barr's bill. This is a 
very thoughtful bill that was put together in trying to deal 
with the liquidity problems in our commercial banks, our small 
commercial banks and community banks in Maine and our credit 
unions throughout the State have in extending credit and loans 
to families and small businesses they might have known for 3 or 
4 generations.
    So when you have, for example, someone trying to borrow 
money to maybe buy a pickup truck up at the Quirk Chevrolet in 
Bangor and they want to borrow the money from Bangor Savings 
Bank, why should Bangor Savings Bank be under the same 
regulatory environment of some of our largest money center 
banks that have tentacles throughout our economy, especially 
when this bank is going to assume complete control and 
authority and responsibility for that loan, not sell it to the 
secondary market? It doesn't make any sense to me.
    So I want to salute, Mr. Chairman, Mr. Barr for trying to 
make it very simple and easy for these banks to continue to 
lend credit throughout our economy.
    Now, I would like to bring my attention in my final couple 
of minutes, Mr. Chairman, to a bill that I am sponsoring with 
Mr. Ellison from Minnesota. It is H.R. 2091. Now, this is a 
very, very important bill in that those of us who have been 
blessed with kids understand that we as parents have a unique 
responsibility to care for our kids, keep them safe, and make 
sure they have a safe place to live, they have enough to eat, 
and they get enough to put on their plate, they are well-
educated and clothed.
    This bill makes a very small technical change that is so 
important. It is called the Child Support Assistance Act, H.R. 
2091, and it simply makes it easy for our child support 
agencies to make sure they have the ability to collect 
parental, noncustodial parental assistance for families who 
have been designated, and parents, noncustodial parents who 
have been designated to provide child support to these 
families. And it does not impinge in any way on the rights that 
these parents have. It just makes the child support agencies 
better able to access their employment history, such that these 
payments can be made on behalf of these kids to make sure that 
they are cared for.
    So I want to thank the chairman for this opportunity to 
speak up on behalf of this bill, the Child Support Assistance 
Act, H.R. 2091. And I would like to, if I may, Mr. Chairman, 
ask unanimous consent to enter a letter into the record from 
the National Child Support Enforcement Association, which 
supports this bill. And again, I give a special thanks to Mr. 
Ellison from Minnesota for cosponsoring this for me. And I ask 
everybody on this committee to stand up and support an 
opportunity to help our kids.
    Thank you very much, Mr. Chairman. I yield back.
    Chairman Neugebauer. Without objection, the gentleman's 
letter will be made a part of the permanent record.
    I would like to thank our witnesses for your testimony 
today, and more importantly, I want to thank you for your 
patience. This is kind of the season where things like this 
happen, and you have been great troopers and I appreciate that.
    Without objection, I would like to also submit the 
following statements for the record: the Conference of State 
Bank Supervisors; the Independent Community Bankers of America; 
the American Bankers Association; the National Association of 
Federal Credit Unions; and the Joint Trades in support of H.R. 
1266. Without objection, those statements will be made a part 
of the record.
    The Chair notes that some Members may have additional 
questions for this panel, which they may wish to submit in 
writing. Without objection, the hearing record will remain open 
for 5 legislative days for Members to submit written questions 
to these witnesses and to place their responses in the record. 
Also, without objection, Members will have 5 legislative days 
to submit extraneous materials to the Chair for inclusion in 
the record.
    And with that, the hearing is adjourned.
    [Whereupon, at 5:30 p.m., the hearing was adjourned.]

                            A P P E N D I X



                             June 11, 2015



[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



</pre></body></html>
